<html>
<title> - THE DEPARTMENT OF DEFENSE'S INQUIRY INTO PROJECT 112/SHIPBOARD HAZARD AND DEFENSE (SHAD) TESTS</title>
<body><pre>[Senate Hearing 107-861]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-861

 THE DEPARTMENT OF DEFENSE'S INQUIRY INTO PROJECT 112/SHIPBOARD HAZARD 
                        AND DEFENSE (SHAD) TESTS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON PERSONNEL

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 10, 2002

                               __________

         Printed for the use of the Committee on Armed Services









                           U.S. GOVERNMENT PRINTING OFFICE
84-856 PDF                         WASHINGTON : 2003
----------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001







                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director
              Judith A. Ansley, Republican Staff Director

                                 ______

                       Subcommittee on Personnel

                     MAX CLELAND, Georgia, Chairman

EDWARD M. KENNEDY, Massachusetts     TIM HUTCHINSON, Arkansas
JACK REED, Rhode Island              STROM THURMOND, South Carolina
DANIEL K. AKAKA, Hawaii              JOHN McCAIN, Arizona
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
JEAN CARNAHAN, Missouri              SUSAN COLLINS, Maine

                                  (ii)









                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

 The Department of Defense's Inquiry into Project 112/Shipboard Hazard 
                        and Defense (SHAD) Tests

                            october 10, 2002

                                                                   Page

Thompson, Hon. C. Michael, a U.S. Representative from California.     1
Winkenwerder, Hon. William, Jr., Assistant Secretary of Defense 
  for Health Affairs; Accompanied by Dr. Michael E. Kilpatrick, 
  Deputy Director for Deployment Health Support Directorate, 
  Department of Defense..........................................   120
Epley, Robert J., Associate Deputy Under Secretary for Policy and 
  Program Management, Department of Veterans Affairs; Accompanied 
  by Dr. Kenneth Craig Hyams, Chief Consultant, Occupational and 
  Environmental Strategic Healthcare Group.......................   124
Alderson, Lt. Cdr. Jack B., USN, Retired.........................   144
Bates, Robert W..................................................   150
Brocklebank, George J............................................   155

                                 (iii)

 
 THE DEPARTMENT OF DEFENSE'S INQUIRY INTO PROJECT 112/SHIPBOARD HAZARD 
                        AND DEFENSE (SHAD) TESTS

                              ----------                              


                       THURSDAY, OCTOBER 10, 2002

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:55 a.m. in 
room SR-232A, Russell Senate Office Building, Senator Max 
Cleland (chairman of the subcommittee) presiding.
    Committee members present: Senators Cleland, Akaka, Bill 
Nelson, and E. Benjamin Nelson.
    Majority staff member present: Gerald J. Leeling, counsel.
    Minority staff members present: Patricia L. Lewis, 
professional staff member; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Dara R. Alpert and Andrew Kent.
    Committee members' assistants present: Andrew 
Vanlandingham, assistant to Senator Cleland; Davelyn Noelani 
Kalipi, assistant to Senator Akaka; William K. Sutey and Peter 
A. Contostavlos, assistants to Senator Bill Nelson; Eric 
Pierce, assistant to Senator Ben Nelson; James P. Dohoney, Jr. 
and Michele A. Traficante, assistants to Senator Hutchinson.

       OPENING STATEMENT OF SENATOR MAX CLELAND, CHAIRMAN

    Senator Cleland. Good morning, everyone. The hearing will 
come to order.
    Representative Thompson, thank you so much for your 
leadership on this issue affecting America's veterans as this 
country contemplates committing young Americans into harm's way 
once again. I think it's the height of irony that we now 
discover that our own Government put our service men and women 
in the Vietnam era into harm's way without full disclosure to 
them of what they were up against. I thank you very much for 
bringing this to national attention. We know you have a vote in 
the House, so if you'd like to proceed, you're now recognized.

 STATEMENT OF HON. C. MICHAEL THOMPSON, A U.S. REPRESENTATIVE 
                        FROM CALIFORNIA

    Mr. Thompson. Thank you very much, Mr. Chairman. Senator 
Nelson, thank you for your interest.
    I'd like to thank you, Mr. Chairman, not only for having 
this hearing and showing the leadership to bring this forward 
to get the good public attention we need so we can get the 
veterans the help that they need, but you've been an early 
proponent of this. It was awhile back when you and I sat out in 
the sun with the other Senator Nelson to introduce our bills to 
the press, the House bill and the Senate bill, both of which 
would be very important and help get the veterans, in this case 
as well as other situations, the help that they need.
    I just want to make a couple of comments. This has been a 
long battle for a lot of us. It was brought to my attention by 
Jack Alderson, who is a constituent of mine, and he's here 
today. He'll testify, I believe, today. Jack was a tugboat 
commander, and he participated in the SHAD testing. It's Jack 
that brought it to my attention that he and a number of people 
that he commanded were getting sick, and he was concerned that 
it had something to do with the tests that they were doing. But 
being the great patriot and the great American that he is, 
that's all he'd tell me. He wouldn't tell me the extent of the 
tests, because they were still classified material.
    I contacted the Department of Defense 4 years ago now and 
was told at the time that there was no such thing as Project 
SHAD and that I was worrying about nothing. We continued, with 
Jack's help, to pester the Department, and finally they said 
there was a Project SHAD, but not to worry; they didn't use any 
chemicals or any biological stuff that presented a problem. 
They used simulants.
    I continued to pester, and, lo and behold, not yet 5 months 
ago they came forward and they said, actually, we did use 
chemical and biological agents, and they gave us a list. The 
two most frightening are VX nerve gas, which our Government 
says is one of the most potent synthesized agents to exist, and 
then they used sarin nerve gas, which we're all familiar with 
because of the Tokyo subway terrorist attack.
    This has been a long, ongoing effort. Yesterday, we had 
another declassification made public. We know now that there 
were at least 5,500 military service members who were subjected 
to these tests. We know that there was a certain offensive 
application that we were testing. We know now that there were 
ground tests that were done, which opens up another issue. Were 
there civilians that were exposed? How are we going to track 
these folks? Hopefully we'll be able, with your help, to get 
some information on this.
    I'd be remiss if I didn't plug the bill that I introduced 
in the House with Michael Bilirakis from Florida and that has 
been introduced by Senator Nelson, of Florida, and Senator 
Cleland, of Georgia, that would recognize that all veterans 
have a right to know what agents they were exposed to, what 
lasting health effects they may expect, and where they can 
receive medical care.
    This is incredibly important right now Senator, as you 
mentioned, as we're on the eve of voting to create another 
population of veterans. Here we have a group that served 
honorably from probably 1962 to 1973, who don't know what sort 
of health problems they're going to have from tests that were 
done to them by our own folks.
    I think this is an issue of trust and integrity. If we want 
veterans to believe in our Government, if we want young people 
who are signing up to be part of our military to believe in our 
Government, it's important that they know that they can trust 
us and that we have the integrity to stand with them in their 
time of need.
    I want to thank all of you, your entire committee, for your 
commitment to make sure that this happens. I have a statement 
that I'd like to submit for the record and, again, just say 
thank you very much. I look forward to working with you to help 
these veterans.
    Senator Cleland. With no objection, we'll include your 
statement in the record.
    [The prepared statement of Mr. Thompson follows:]
           Prepared Statement by Representative Mike Thompson
    Thank you Chairman Cleland and Ranking Member Hutchinson for 
holding this hearing. It comes on the brink of an historic decision 
that Congress will be making regarding authorizing our Armed Forces to 
take action against Iraq. This hearing is even more imperative because 
we are once again asking our troops to answer the call of duty and to 
confront a dangerous enemy. Our service members must know that we stand 
by them during times of war and peace.
    My own personal experience with this issue began over 3 years ago 
when a constituent of mine, Jack Alderson, asked me to investigate 
something he called Project SHAD. I am honored that Jack is here today 
and that he will be sharing his knowledge with you. He is a great 
patriot who has refused to disclose classified information regarding 
these tests until the DOD has acted. He has not broken the promise he 
made to his country nearly 40 years ago despite hearing of crew illness 
and experiencing illness himself.
    Jack was the commander of five tugs used in these experiments. At 
first the Department of Defense told us that Project SHAD did not 
exist. Then we were told that it did exist but only simulants were used 
in the tests. Finally, after 3 years of pressure, DOD not yet 5 months 
ago revealed that these tests involved harmful chemical and biological 
agents the worst of which included VX nerve gas and Sarin nerve gas.
    The DOD has called VX one of the most lethal substances ever 
synthesized, and as we all know, Sarin was used in the deadly terrorist 
attack on the Tokyo subway system. Yet we put at least 5,500 of our 
service members at risk by exposing them to these hazardous agents. It 
is incumbent upon this Congress to ensure that any service member who 
participated in these tests is provided with appropriate evaluation and 
treatment if they have long-lasting health problems associated with 
these tests.
    I've introduced legislation along with my friends Representative 
Michael Bilirakis of Florida and Senator Bill Nelson of Florida that 
would seek to provide relief and care for veterans who were involved in 
these and similar tests by requiring the DOD to release all relevant 
information.
    After all, veterans have the right to know:

        (1) What agents they were exposed to;
        (2) What the lasting health effects are; and
        (3) Where they can receive medical care.

    They have the right to know and they should have known a long time 
ago.
    The Department of Defense released new declassified information 
yesterday which for the first time describes testing done on American 
soil and overseas. Alaska, Florida, Hawaii, Maryland, Utah, Canada, and 
England were the locations used and DOD claims that civilians were only 
exposed to simulants. Keep in mind that some of these simulants are 
still live biological agents and may be harmful. It appears that not 
only were soldiers put at risk but the civilian population the DOD is 
charged with protecting may also have been put at risk.
    SHAD and similar cases of chemical and biological testing on 
service members is an issue of trust and integrity. Our military 
personnel put their trust in our Government to protect them and our 
integrity has been compromised because nearly 40 years later we are 
still not protecting them. How can we expect the current generation of 
soldiers to put their lives on the line knowing that harm from the 
enemy may not be the only danger they encounter? Jack and other 
crewmembers are beginning or have already experienced health problems 
that may be associated with these tests. It is deplorable and 
inexcusable that the Department of Defense has taken nearly 40 years to 
begin to release this information. That's why this hearing is important 
and I want to thank each of you on the committee for your commitment to 
seeking the truth. I am grateful to you and I know that the thousands 
of veterans who participated in these tests are also grateful.

    Senator Cleland. Just one question. Don't you think it's 
ironic that our Government is ``exercised'' now about sarin gas 
and VX chemical and biological agents being in the hands of 
Saddam Hussein that we're actually creating this whole 
worldwide focus on that, and yet it's been very difficult to 
pry out of this administration the real story about the use of 
sarin gas and VX on our own forces when they were committed to 
war in the Southeast Asian area? Don't you think that's the 
height of irony?
    Mr. Thompson. Senator, I agree that it's the height of 
irony, and I think it's absolutely deplorable and inexcusable 
that for 40 years our Government has sat on this information.
    What came out just recently is that 10 years ago the 
military released some of this information. The Veterans 
Administration and the Department of Defense knew 10 years ago 
that these veterans were exposed to this stuff, and there's 
been a 10-year period where nothing has been done. So not only 
has it been hidden for 40 years; the last 10 years of that 
somebody within these administrations knew that this was a 
problem, and still nothing was done--5,500 veterans that we 
know of, and now possibly civilians, exposed to, as you say, 
the same gases that we're creating such a fuss over right now.
    Senator Cleland. They're so exercised again about these 
biological and chemical weapons. Shouldn't they support our 
legislation to take care of our own troops that were exposed by 
our own Government to these agents?
    Mr. Thompson. I don't think there should be a member in 
either body that's not a coauthor. I think it's pretty 
straightforward. It's very pro-veteran. It's very American. It 
opens the process so folks know what they were exposed to and 
what the health problems are and how they need to get the help.
    Senator Cleland. Thank you very much for your leadership.
    Mr. Thompson. Thank you.
    Senator Cleland. Senator Nelson, do you have any comments 
to make to the Congressman before he leaves?
    Senator Ben Nelson. Yes. Thank you, Mr. Chairman. I, too, 
want to thank Congressman Thompson for being here today and for 
his support and leadership in providing for this legislation.
    I want to thank you, as well, Mr. Chairman, for your 
leadership. As a member of the Veterans' Affairs Committee, 
I've already heard testimony from my colleague, Senator Nelson 
from Florida, and others on this issue.
    There's no question that the United States is a great 
country. The men and women who serve our country do so knowing 
that there are some risks. But one of the risks that they ought 
not to assume is exposure to chemicals or biological conditions 
that would be detrimental to their health that would come from 
our own country. We recognize that exposure can occur in 
military operations when we're fighting an enemy, but, in this 
case, it's very clear that the classification of this 
information was more to protect the U.S. Treasury, I think, and 
perhaps those that made the decisions, than it was to protect 
the American people, and certainly those who were exposed.
    I appreciate very much your efforts to hold this hearing 
today, as well as your support of this legislation. I look 
forward to further testimony.
    Thank you very much, Mr. Chairman.
    Senator Cleland. Thank you, Senator Nelson. We should 
mention and underscore the fact, as you pointed out, that 
Senator Bill Nelson from Florida has been a champion here in 
this regard and one of the ones that called it to my attention, 
as well. Thank you very much for your presence today.
    We welcome everyone to the hearing today to receive 
testimony regarding a series of chemical and biological tests 
that may have exposed service members to hazardous substances.
    I'd like to thank everybody for attending. All of us are 
concerned about this. It's late in the session, as we know, 
but, as such, I'm pleased that we are able to schedule this 
hearing in the midst of a debate on Iraq and conference and 
consideration of the Defense Authorization and Appropriations 
bills.
    Before we begin on SHAD, I just thought I'd mention the 
issue that is close to my heart and close to the hearts of 
veterans out there, especially those who spent 20 years or more 
in the American military and are retirees and also disabled in 
the service of their country. Of course, what we're talking 
about here today is disabling to those veterans, and we want to 
get to the bottom of it.
    I'd like to discuss the issue of concurrent receipt. This 
important issue may be the last stumbling block in order to 
move forward on the Defense Authorization bill.
    I believe that we, in Congress, must address this issue in 
this year's bill. It is my hope the President will reconsider 
his threat to veto the Defense Authorization bill over a 
provision that will have a positive impact on our military 
retirees and those who were wounded in the military.
    We must take care of those who served our country and 
protected us. That's what this hearing is about. That's what 
concurrent receipt is about, the ability to collect your 
retirement if you put 20 years or more in the American 
military--and as we now know, that is no mean feat--and then to 
be able to collect your disability compensation if you happened 
to be disabled in the line of duty. It seems to me that's a no-
brainer, just like the good Congressman suggested, that we 
ought to take care of those who take care of us, especially as 
we're now thinking about sending young Americans again into 
harm's way.
    So we'd like now to get at the bottom of this issue of 
SHAD, Shipboard Hazard and Defense, testing. As many of you 
know, earlier this year the Department of Veterans Affairs, in 
cooperation with the Department of Defense, began sending 
letters to veterans all over the country alerting them that 
they may have been exposed to chemical and biological agents 
while serving in the Navy in the 1960s. As this story has 
become more and more public, we're starting to understand the 
facts with a little more clarity.
    SHAD was conducted in the 1960s, the very moment that I and 
others were on the ground in Vietnam fighting the Vietnam War 
and coming and going into the Pacific. The SHAD projects were 
part of a larger testing operation known as Project 112. 
Project 112 was a DOD research and testing project, but it was 
research and testing on our own people. It was so named because 
it was number 112 of Secretary McNamara's 150 management 
initiatives, God help us. It consolidated the oversight of all 
of DOD's chemical and biological testing into one central 
location, in the Deseret Test Center at Ft. Douglas, Utah.
    Project 112 included 134 planned tests. DOD has indicated 
that, of those, 46 were conducted, 62 were cancelled, and 26 
are still unknown. From what we've been told, there were a 
total of 34 planned projects associated with the SHAD program.
    Project SHAD was conducted by DOD during the 1960s to 
determine the effectiveness of shipboard detection of chemical 
and biological warfare agents, the protective measures taken 
against chemical and biological warfare agents, and to 
determine the potential risk to American forces by these 
agents. Some of these tests used live chemical and biological 
agents. Some used chemical and biological simulants, as well as 
tracers and decontaminants.
    The Department of Veterans Affairs has identified that some 
of the agents that were being used during SHAD were very risky. 
They include VX and sarin chemical nerve agents, Q-fever and 
rabbit-fever biological agents, and strains of E. coli as 
biological simulants. Most tests that involved exposure of 
service members used simulants, things believed not harmful to 
human beings and not live agents.
    Yesterday, the Department of Defense released additional 
fact sheets on some of the tests that were part of SHAD and 
other tests conducted out of the Deseret Test Center. Without 
objection, these fact sheets will be included in the record.
    [The information referred to follows:]
      
     
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
      
    Senator Cleland. From the information released yesterday, 
we know that some Deseret tests were categorized as land-based 
tests and were conducted in Alaska, Florida, Hawaii, Maryland, 
Utah, and included Canada and Great Britain.
    Let me say that I'm extremely disappointed to learn that 
DOD had been testing military service members with chemical and 
biological agents and simulants during the 1960s and 1970s when 
we were at war in Vietnam. What is most disappointing is that 
the Department of Defense is just now acknowledging these tests 
some 30 years after they were conducted.
    It took the determination of veterans to force the 
Department of Defense to acknowledge and recognize these tests. 
It is my hope that an outcome of this hearing will ensure that 
the Pentagon not treat our military service men and women as 
guinea pigs and be more forthcoming in dealing with our service 
members on issues important to their quality of life.
    Despite my concern and frustration, the purpose of the 
hearing today should move beyond blame and disappointment. We 
cannot change what happened back in those days. Today's hearing 
is going to focus on what we can learn from this situation and 
how to help our veterans.
    Today we must work to see that our veterans are getting the 
health care that they deserve. We must also focus on what 
additional resources we, as Congress, can provide the DOD and 
the VA in order to expedite these veterans' claims. In 
addition, we must be assured by both agencies that they are 
working together to share information and resources for the 
good of current military personnel and future veterans. 
Ultimately, we have to ensure that the military services and 
the Department of Defense are no longer conducting this kind of 
test on our military men and women.
    As I pointed out with the Congressman, what an incredible 
irony that we are here all focused on weapons of mass 
destruction such as sarin gas and VX in another country and 
expending all of this energy getting the world focused on this, 
and we're having to pull, like teeth, information out of our 
own Government about what we did to our own people with these 
agents over 35 years ago.
    Before we move on to our panelists, I'd like to acknowledge 
the work that has been done on this issue by other individuals. 
SHAD was first made public by Eric Longabardi, producer and 
investigative journalist for Telemedia News Productions. We 
appreciate his dedication and his discovery of this story and 
for his tireless effort to bring attention to this important 
issue.
    I understand that Mr. Longabardi is present today. Mr. 
Longabardi, would you stand up, so we can recognize you and 
thank you for your work? Thank you very much, sir.
    I also want to thank the Vietnam Veterans of America, who 
have, over the years, compiled a large amount of information on 
these tests and have kept the pressure on the Departments of 
Defense and Veterans Affairs to disclose information about the 
tests. They provided us invaluable help in preparing for this 
hearing.
    This organization has submitted a statement for the record 
of this hearing. Without objection, their statement will be 
included in the record.
    [The prepared statement of Richard Weidman follows:]
                 Prepared Statement by Richard Weidman
    On behalf of Vietnam Veterans of America (VVA), and our National 
President, Thomas H. Corey, we would like to thank the Senate Armed 
Services Committee and the Subcommittee on Personnel for tackling an 
issue that has been ignored for more than 40 years. In addition, we 
would like to recognize the following individuals, without whose strong 
leadership and steadfast pursuit of the truth in these matters, 
information vital to the health of our Nation's veterans which would 
still remain hidden. To the distinguished Chairman of the full 
committee, the Honorable Carl Levin and Ranking Member Senator John 
Warner, as well as Senators Tim Hutchinson and Max Cleland, our sincere 
gratitude for your leadership. A special thank you is owed to Senator 
Bill Nelson for his tireless efforts as well. VVA must also recognize 
and thank Representative Mike Thompson for his zealous quest for the 
truth in the House of Representatives.
    Most of all VVA is grateful and wishes to pay respect to the 
individuals who were exposed to live chemical warfare agents, live 
biological warfare agents, and perhaps strong dosages of radiation. 
These men have pursued the truth of these matters as civilians just as 
faithfully and determinedly as they fulfilled their duties to America 
in military service.
    Sadly, the reason that this issue has not come to the attention of 
the American public and Congress sooner is because it appears that our 
military has treated its own personnel without regard for their health 
and safety, and obfuscation when those who have served their country 
require information that might affect their very lives. This delay has 
been further exacerbated by inaction and, occasionally, deliberate 
measures, on the part of individuals within the Department of Veterans 
Affairs (VA) who have assisted the Department of Defense (DOD) in the 
obfuscation of the truth, thereby allowing the VA to deny veterans 
claims for the adverse health effects of exposure to the agents used in 
Project SHAD (Shipboard Hazard and Defense). Military personnel deserve 
the truth surrounding health consequences related to military 
exposures, military testing or any event in which the DOD may be 
culpable. More importantly, they deserve treatment, healthcare, and 
compensation for resulting disability(-ies).
    More than 40 years ago, Navy and Army personnel were involved in a 
series of tests to determine shipboard vulnerabilities. Some of these 
men were required to sign non-disclosure agreements to ensure their 
silence, others were simply not informed of the test in which they were 
involved or the possible health effects of such testing.
    In testimony today, we will hear of the impassioned pleas of the 
veterans who have consistently demanded answers from the Federal 
Government. The committee will witness firsthand the concealment and 
dissemination of misinformation undertaken by the DOD and middle 
management gate keepers within the Department of Veterans Affairs. All 
of this deception and obstruction were designed to simply do two 
things: (1) prevent the truth from being known; and (2) delay or 
prevent the cost of healthcare and compensation for those affected.
    This pattern has repeated itself over and over again. Consider the 
plight of military personnel and veterans concerning the effects of gas 
in World War I; radiation in World War II; Agent Orange in Vietnam; and 
toxic exposures in the Persian Gulf. Nevertheless, young men and women 
continue to serve this great Nation. One day, they may decide that the 
burden is too much to bear if someone does not step up to the plate and 
restore the confidence in our military and the Federal veterans' 
healthcare and compensation system. That confidence can only be 
restored by a national commitment that if our servicemen and women are 
harmed in any way as a result of their service, our Nation will do its 
part to make the service member whole without delay, without denial, 
and without reservation.
    VVA could provide rather lengthy detail about how the Projects 112 
and SHAD developed and who was responsible for its conduct from the 
1960s through the 1970s. However, rather than give a history lesson, we 
want to focus on the facts, followed by some very specific 
recommendations.
                               the facts
        <bullet> National Security Action Message (NSAM) 235 described 
        the scope and complexity of ``Large Scale Scientific or 
        Technological Experiments with Possible Adverse Environmental 
        Effects.'' This document is submitted to demonstrate the level 
        of concern and information requirements needed to conduct or 
        cancel any future testing of this nature.
        <bullet> The Geneva Convention, to which the United States is a 
        signatory, requires informed consent when using humans in any 
        kind of testing. This informed consent also covers vaccines, 
        investigational drugs, testing delivery methods, testing 
        protective measures, and any other testing where data is 
        gathered through the use of human subjects.
        <bullet> SHAD veterans were not afforded Geneva Convention 
        protection in clear violation of international law. The United 
        States Government, the Department of Defense, and the 
        Department of Veterans Affairs withheld the knowledge that SHAD 
        testing had actually occurred; each Department or Agency with 
        varying degrees of complicity for well over 40 years.
        <bullet> SHAD veterans have suffered needlessly because 
        critical health and exposure data were not released for more 
        than 40 years. Many veterans have died and others currently 
        suffer adverse health effects that are, to this day, being 
        dismissed as having no connection to the testing.
        <bullet> As early as 1975, the United States Senate in the 94th 
        Congress conducted hearings to understand the use and storage 
        of toxic agents with respect to intelligence activities of the 
        CIA and military. In this report, many of the tests discussed 
        were under Project 112, but the Senate probe was not made aware 
        of the full scope of the program.
        <bullet> In 1977, the Department of the Army published the 
        report titled ``U.S. Army Activity in the U.S. Biological 
        Warfare Programs,'' Volumes 1 and 2. Chapter 5 of this document 
        discusses the period in which SHAD veterans were used to 
        conduct shipboard vulnerability testing. Specifically 
        noteworthy in this chapter is the section on page 5-6 which 
        states, ``[i]n addition, review and approval by the Office of 
        the Secretary of Defense (OSD) and the President's Scientific 
        Advisory Committee (PSAC)'' were required. Coupled with the 
        Deputy Secretary of Defense approval of only part of the test, 
        these documents demonstrate the extreme care taken to assure 
        the ultimate in safety, the highest level of review and 
        approval, and appropriate government coordination. These 
        reviews of proposed Biological Weapons/Chemical Weapons tests 
        focused on the need to place governmental controls on any 
        experiment that could have adverse effects on the environment; 
        and precipitated NSAM 235.
        <bullet> The level of consideration and review required makes 
        it difficult for VVA to understand why DOD and the Deployment 
        Health Support Directorate (DHSD, the office formally known as 
        OSAGWI) is claiming that some of the tests may not have 
        actually been conducted and that they can find no records of 
        other tests clearly slated to be conducted. This program did 
        not allow for fly-by-night testing to be conducted or canceled 
        without the highest level of review. What information remains 
        unknown concerning military testing that DOD has not admitted 
        to? Will there be a need to meet again in the years to follow 
        to hear admissions of additional testing?
        <bullet> In 1992, the Army responded to Senator Steve Symms' 
        personal request for information regarding a constituent who 
        claimed he was part of a project designed to test the 
        vulnerabilities of ships and humans to various chemical and 
        biological agents. The answer provided to the Senator in 1992 
        describes almost exactly what we know about the project today.
        <bullet> In 1993, Senator John D. Rockefeller, in an unrelated 
        request, tasked the General Accounting Office (GAO) to perform 
        a comprehensive search for all chemical and biological testing 
        under the guise of ``Military Human Experiments.'' This 
        research was required in order to set the record straight on 
        the last 50 years of human testing, including new 
        investigational drugs and vaccines that were subsequently used 
        during the Gulf War. The reason such exhaustive research was 
        required was because veterans could not prove they had been 
        part of these secret testing programs. Even though they 
        believed that they suffered adverse health consequences of 
        being experimented upon, absent official records of exposure, 
        the VA could deny medical treatment and compensation because 
        the veteran could not meet their burden of proof. According to 
        the GAO report, the VA had knowledge of secret Army chemical 
        tests that involved Army and Navy personnel as early as 1992.
        <bullet> In 1994, many other individual veterans began to seek 
        assistance from their Senators and Representatives to get 
        information about the health risks and consequences of the 
        testing. Senator Dianne Feinstein received a response from the 
        Army which stated that ``[t]he Army will respond to the VA 
        request for information associated with personnel exposure by 
        providing verification of exposure if possible, identification 
        of agents used, and available information on possible dosage 
        and effects.'' This statement, not unexpectedly, did not seem 
        to apply to the GAO report then underway in 1994. In fact, as 
        far as the VVA can ascertain, no SHAD veteran has ever received 
        an award of service-connected benefits for any disease or 
        illness based upon an assertion of an etiological relationship 
        to BW/CW testing.
        <bullet> On December 8, 1994, Senator Rockefeller submitted a 
        report titled ``Is Military Research Hazardous to Veterans 
        Health?'' This report was based on the GAO investigation and 
        was supposed to contain comprehensive findings concerning all 
        human subject testing. In its investigation, the GAO had 
        queried all Federal agencies, including the DOD, the VA, and 
        any other agency believed to possess information on human 
        testing. Nevertheless, SHAD is not mentioned in the GAO report, 
        nor is it discussed in the Rockefeller report. Yet, even now, 
        increasing numbers of SHAD-exposed veterans are asking for 
        information from both the DOD and the VA. Veterans are trying 
        to obtain the evidence that is required in order to 
        substantiate claims for VA compensation and healthcare. The 
        only logical possible explanation for the current situation is 
        that the Department of Defense was neither truthful nor 
        forthcoming in responding to the GAO about the existence of 
        SHAD testing. Sadder still, the Department of Veterans Affairs 
        has, until recently, acted as if its does not understand the 
        nature of these veterans' claims or whether the testing 
        actually occurred. Responses to VVA's Freedom of Information 
        Act (FOIA) requests for documentation have borne out these 
        scenarios.
        <bullet> Records obtained through FOIA requests demonstrate 
        that middle-level managers within the Department of Veterans 
        Affairs had full knowledge of the scope and adverse heath 
        consequences faced by service members who participated in SHAD 
        testing. These individuals had been in direct contact with the 
        Department of Defense concerning these matters. They include, 
        but are not limited to, the VA's Compensation and Pension 
        Service, Environmental Hazards, and the Veterans Health 
        Administration. It appears that these individuals have 
        affirmatively sought to hide the truth from senior VA 
        management, Congress, the USOs, and the American Public.
                            recommendations
    In light of the foregoing, in order to facilitate SHAD-exposed 
veterans access to VA healthcare and compensation benefits before their 
health deteriorates further, VVA recommends the following.

        <bullet> SHAD and Project 112-related information must be 
        immediately declassified as to exposed personnel, agents 
        employed, and dosage levels.
        <bullet> Exposed veterans should be notified as soon as they 
        are identified and called in for immediate examination and 
        claims preparation.
        <bullet> A national registry should be created for these 
        veterans, with thorough examination and diagnostic testing 
        protocols.

    Furthermore, VVA requests an investigation be conducted by the 
Inspectors General for the VA, DOD, and the Justice Department into why 
and how information was withheld from those who needed it most, 
including VA leadership. The actions of those in the DOD and VA that 
have withheld information and/or mislead others must be rectified 
through investigation, proper disciplinary action, and criminal 
prosecution, where warranted.
    Once again, VVA would like to express its gratitude to the 
committee for the opportunity to present its views in this matter of 
vital importance to our Nation's veterans. In addition, we would be 
remiss if we did not acknowledge and thank the Secretary of Veterans 
Affairs, Anthony Principi, for his sincere commitment to our service 
personnel, whose unknowing exposure to hazardous agents have resulted 
in long-term health consequences. Those men and women who have been 
adversely affected by their service to our country deserve no less. VVA 
stands ready to assist Congress and the executive branch in any way in 
accomplishing this task.

    Senator Cleland. Today's hearing consists of three panels. 
We're honored to have Congressman Michael Thompson, who just 
spoke, who has been working on uncovering the mysteries of SHAD 
and Project 112. Our second panel includes DOD and VA 
representatives. Our third panel includes three veterans who 
were actually involved in the SHAD tests.
    Senator Akaka, would you like to make a statement?
    Senator Akaka. Yes, Mr. Chairman. Thank you very much for 
holding this hearing. The more I learn, Mr. Chairman, about 
what these tests entailed, the more concerned I become.
    A lot of the focus from the Department, and rightly so, is 
on the release of BG--that's Bacillus globigii. It was released 
over the island of Oahu, the most densely populated island in 
Hawaii. It is my understanding that thousands of civilians 
could have been exposed to BG during this test. I'm concerned 
about the potential adverse health consequences of such 
exposure for people who may not meet the definition of 
``healthy.''
    I am particularly concerned about the tests involving sarin 
and MAA, a sarin simulant, on the Big Island of Hawaii. While 
simulants are considered harmless to healthy people, there are 
definite adverse health consequences related to the exposure to 
sarin, which is one of the weapons of mass destruction we 
believe to be in the possession of Saddam Hussein.
    America has a sad legacy of weapons testing in the Pacific. 
I have worked for many years to aid residents who were 
adversely affected by our nuclear testing in the Marshall 
Islands, where people were removed from their homes and their 
islands used as targets. Many of them are still unable to 
return because of the plutonium left behind. While this was a 
completely different and separate testing program, there are 
common concerns about the adverse health impacts and the timely 
release of information, as you have pointed out, Mr. Chairman.
    I look forward to hearing the testimony this morning and to 
answers to questions that I have pertaining to these tests.
    Thank you very much, Mr. Chairman.
    Senator Cleland. Thank you, Senator.
    Senator Bill Nelson of Florida.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Mr. Chairman, first of all, I want to thank you for holding 
this hearing, a request that I made to you when we were down in 
South Florida.
    This all started with a number of people in South Florida 
telling me that there had been some mysterious and secret 
activity that had gone on at the old Boca Raton airfield, which 
was the old World War II training field. This activity started 
to occur in the 1950s. That area of Florida today is quite 
heavily developed. It now is the location for Florida Atlantic 
University, one of our major State universities, the Boca Raton 
Airport, a general aviation airport, a community college, and a 
research center for private industry that is connected with 
Florida Atlantic.
    Interestingly, on the north border of the airport and 
Florida Atlantic is an unused, undeveloped 60-acre parcel, 
which we have been trying to identify. It's my expectation that 
in Florida tomorrow I will have historical aerial photographs 
of the old location comparing it with the new location today of 
what is undeveloped. Ostensibly, this activity was to develop a 
spore that could kill the Soviet wheat crop.
    Along with this research, since it came to my attention 
from a number of our constituents, I wrote to the Department of 
Defense early in the year and was basically told to buzz off. 
As we then started to hear complaints from other veterans that 
are retired in Florida about a number of other tests that were 
conducted, not in the 1950s, but in the 1960s and the 1970s, 
many of these under the acronym SHAD, where ships in the 
Pacific basically were gassed in order to see if their 
protective systems against biological or chemical agents were 
effective. As these veterans started coming forth, we learned 
they were never informed about this. Some of them were not 
informed until they started receiving letters earlier this year 
from the Department of Veterans Affairs saying, ``You might 
want to come in and have a medical checkup.'' Well, 30 and 40 
years later, that sounds to me like it's rather unconscionable.
    Other veterans, one of whom is here with us today from Palm 
Beach Gardens and will testify, were not in the Pacific. He was 
in the Atlantic. He was ported out Newfoundland. Planes would 
come in and spread out and lay down a pattern of gas, and the 
ship would then sail through that gas. This Florida veteran who 
is going to testify today will tell you that they were told 
nothing about it. During the conduct of the test, they were not 
told to use any kind of protective gear. After the test, they 
were told, ``Mind your own business.'' He finds out about this 
in 1998, because somebody is onto this doing investigation for 
a TV outfit in another State.
    So I am grateful to you, Mr. Chairman, for your leadership 
in recognizing the potential here that service men and women, 
as well as civilians, have been subjected as guinea pigs to 
tests without ever being informed and, three and four decades 
later, are being informed that they'd better come in and have a 
medical examination. That is unconscionable.
    Now, it's also interesting, of the 120 or so tests that 
were conducted even though I have been pressing the Department 
of Defense for information about what was going on at Boca 
Raton--and, of course, this committee is entirely capable of 
receiving classified information--that what was released day 
before yesterday with regard to Florida was the wheat spore 
test at Yeehaw Junction, which is some 70 miles from Boca 
Raton. But other tests that were conducted in Florida in Ft. 
Pierce, in Avon Park, in Panama City, and at Eglin Air Force 
Base, in addition to Yeehaw Junction, and the mother ship test 
being done in Boca Raton, none of that information has been 
forthcoming.
    Since the Department of Defense has resisted this member of 
the committee to find out what went on to see if we have any 
kind of health hazard in Florida, I am all the more grateful to 
you, Mr. Chairman, for calling this hearing so that we can get 
to the bottom of it.
    Thank you, Mr. Chairman.
    Senator Cleland. Thank you. Would you yield for a question? 
Do you find it as ironic as I do that we're mustering the 
support of the international community to go after Saddam 
Hussein, because he possesses the very weapons that we possess 
and possessed in those days and used them on our own people, 
our own veterans, without their knowledge in the Pacific, in 
the Atlantic, and in States in this country? Do you find that 
ironic?
    Senator Nelson. Mr. Chairman, that is highly ironic. 
Interestingly, of the first 622 letters that were sent out by 
the Department of Veterans Affairs saying that the veterans had 
better come in, ``We don't think that you have a health hazard, 
but we want you to come in and have it checked if you would 
like to''--of those 622, most of those letters of any State 
went to California, but the second highest, some 52 of those 
letters, went to veterans that are retired in Florida. The 
Senator from Georgia, our Chairman, had a number of those 
letters. As a matter of fact, there are not many States in this 
Union that weren't represented in that initial batch of a 
paltry 622. When we get through with declassifying all these 
122 tests, how many thousands is it going to be? I know that a 
lot of them are going to be in the State of Florida, and I know 
a lot of them are going to be in the Chairman's State of 
Georgia.
    Senator Cleland. Thank you very much.
    Senator Ben Nelson, do you have any further comment?
    Senator Ben Nelson. No, other than to say, Mr. Chairman, I 
am very pleased to be a cosponsor of this legislation. I am 
very anxious to learn more about the difference between 
classified information and sensitive information. We apparently 
have the opportunity to receive classified information, but 
perhaps not sensitive information. I think that's a distinction 
that shouldn't exist and I hope won't continue to exist in the 
future. I hope that we will be able to receive the kind of 
information that we need to regardless of whether it's 
classified or just simply considered too sensitive to release. 
There's no distinction as far as I'm concerned.
    Senator Bill Nelson. Mr. Chairman?
    Senator Cleland. Senator Nelson?
    Senator Bill Nelson. May I insert my formal opening 
statement in the record?
    Senator Cleland. Without objection, so ordered.
    [The prepared statement of Senator Bill Nelson follows:]
               Prepared Statement by Senator Bill Nelson
    Thank you, Mr. Chairman, and thank you for calling for this 
important hearing. You are truly a champion of veterans' rights and 
welfare in the Senate, and your leadership on this issue is appreciated 
across the country.
    The work that lies ahead of us is daunting; this hearing is an 
important step in what will no doubt be a long journey of national 
self-examination and, where necessary, correction. I look forward to 
working with you and this subcommittee.
    I would also like to welcome and thank today's witnesses.
    Our colleague, Representative Mike Thompson of California, has been 
out front on this issue for many years. We owe him a debt of gratitude 
for his recognition of the dangers apparent in our own history of 
Chemical and Biological Warfare experimentation, his abiding concern 
for the welfare of those veterans who may have been wittingly or 
unwittingly exposed to the dangers of that experimentation, and his 
unwillingness to accept the Department of Defense's denial, delay, or 
deflection of their responsibility to provide the information necessary 
to care for those veterans. Congressman Thompson, we are honored that 
you join us here today.
    Mr. Chairman, I join in welcoming our witnesses from the 
Departments of Defense and Veterans Affairs. No doubt they are fully 
aware that we depend upon their contributions both here and outside of 
the hearing room as we consider how we will move forward as a Nation to 
ensure the public safety, regain the public trust, and protect the 
rights of the possibly thousands of veterans who dutifully and 
faithfully put themselves in harm's way during America's years of 
chemical and biological warfare testing.
    Mr. Chairman, I am particularly pleased to welcome and thank the 
veterans here with us. Gentlemen, you honor us with your presence. You 
have no idea how important it can be to those of us in Congress to be 
able to put a human face on a challenge as complex and difficult as 
this. Today you represent thousands of your shipmates from so many 
years ago. No doubt they are already proud of what you are doing, as 
are we in the Congress.
    Over the last several months, and indeed over the last few years, 
we have become increasingly alarmed and disappointed by the Defense 
Department's acknowledgements that experimentation during the Cold War, 
known as Project 112 and SHAD, used chemical and biological agents that 
exposed service members unwittingly to potentially lethal toxins.
    These tests were initiated and conducted in a different time and 
under different security challenges. It occurs to me that many in 
America may not have a clear recollection of the tensions related to 
the Cold War and a very real and dangerous Soviet empire. The Soviet 
Union was doctrinally committed to the first use of chemical weapons in 
support of its operations on land and at sea.
    The military necessity of anticipating, understanding, and 
mitigating the vulnerability of our Armed Forces to gas attack was and, 
even today, remains indisputable. However, using our service members, 
or citizens, intentionally or not, as human guinea pigs is 
reprehensible.
    Up to now, the Department of Defense has been slow to acknowledge 
that testing occurred, slow to acknowledge the scope of the testing, 
and slow to release relevant, unclassified information necessary to 
identify risks to public safety or the veterans who may have 
participated in those tests. Confidence is low among veterans that the 
Department of Defense has the ability or, more importantly, the 
willingness to provide the information necessary to identify 
potentially affected service members and help get them the medical care 
they may need.
    Delay in disclosing this testing history has denied our veterans 
the care to which they might be entitled. Evidence available to us 
suggests that we have lost almost 10 years due to the Defense 
Department's denial, delay, over-classification, and avoidance of 
accountability.
    Incomplete disclosure of these tests undermines the effectiveness 
of the effort to identify all the veterans potentially affected and 
getting them the care they may require.
    Immediate and full disclosure is essential to the fastest possible 
identification of service members potentially affected by harmful 
agents and their rapid integration into the veterans' health system for 
the care they may need and deserve.
    Mr. Chairman, we must work harder. The Department of Defense must 
finish its review of classified documents relative to Project 112 
within months, not years, and get the information necessary to identify 
potentially affected veterans to the Department of Veterans Affairs.
    We simply cannot allow anything to delay this effort, especially 
not bureaucratic challenges or an unwillingness to make this the 
national priority it deserves to be. That is why Senator Cleland and I 
have introduced S. 2407, the Veterans Right to Know Act of 2002. It 
would require the Department of Defense to systematically and 
comprehensively research, declassify, and disclose information relative 
to our chemical and biological warfare testing regardless of year or 
project.
    Project 112 may only be the tip of the iceberg. I wonder what other 
chemical or biological weapon or defense test regimes may have been 
conducted in similar circumstances, at other times?
    Mr. Chairman, through the three long generations of the Cold War, 
there may have been imagine hundreds of developmental and operational 
tests that may have exposed military personnel or even civilians to 
actual or simulated chemical and biological agents.
    How many more late and incomplete disclosures of possible damage to 
the health of our veterans, or risks to our communities, will trickle 
out of the Department of Defense?
    It is time to establish conclusively the true scope of our own 
chemical and biological weapons history, and to examine ways to balance 
our legitimate requirements for the continued secrecy of these programs 
and the disclosure necessary to identify and locate people potentially 
harmed by these tests.
    We must make right whatever harm may have occurred in our past.
    We must come to grips with our own history of chemical and 
biological weapons and defense testing if we ever hope to lead the 
world away from the development or use of these weapons of mass 
destruction.
    Mr. Chairman, I have always tried to be perfectly clear about our 
purposes. We are not asking the United States to unravel those military 
secrets necessary to protect our national security.
    We are asking for the Department to make available all information 
necessary to identify personnel who may have been exposed to harmful 
agents so that they may be located and afforded the appropriate medical 
evaluation or care.
    Mr. Chairman, I am eager to work with you, this committee, our 
colleagues, the leadership, and the Departments of Defense and Veterans 
Affairs to ensure that we take a comprehensive approach to this 
challenge and do the right thing for our veterans and citizens.
    I look forward to the testimony of these distinguished witnesses 
and what we will learn today. Thank you.

    Senator Cleland. I'd like to invite the next panel to come 
forward. We welcome our second panelists, the Honorable William 
Winkenwerder, Jr., Assistant Secretary of Defense for Health 
Affairs; Mr. Robert Epley, Associate Deputy Under Secretary for 
Policy and Program Management for the Department of Veterans 
Affairs; and Dr. Michael Kilpatrick, Deputy Director for 
Deployment Health Support Directorate for the Department of 
Defense.
    Gentlemen, thank you very much for coming. We'll begin with 
Dr. Winkenwerder. You may begin your opening statement at this 
time.

    STATEMENT OF HON. WILLIAM WINKENWERDER, JR., ASSISTANT 
  SECRETARY OF DEFENSE FOR HEALTH AFFAIRS; ACCOMPANIED BY DR. 
 MICHAEL E. KILPATRICK, DEPUTY DIRECTOR FOR DEPLOYMENT HEALTH 
           SUPPORT DIRECTORATE, DEPARTMENT OF DEFENSE

    Dr. Winkenwerder. Thank you, Mr. Chairman.
    Mr. Chairman and members of the subcommittee, thank you for 
the opportunity to appear before you today and to inform you on 
the progress of the Department in investigating the operational 
testing conducted by the Deseret Test Center.
    With your permission, I would like to submit my written 
testimony for the record and provide the subcommittee with 
brief opening remarks.
    Senator Cleland. Without objection.
    Dr. Winkenwerder. I'd also like to introduce Dr. Michael 
Kilpatrick, who is here with me, as you've noted, who is our 
Deputy Director for Deployment Health, and who has been my lead 
right hand, so to speak, in overseeing these investigations. 
He's a well-known expert in this area, and, with your 
permission, I may ask him for input to answer some questions 
that are of a technical nature.
    From 1962 to 1973, a number of operational tasks were 
conducted by the Department of Defense to assess certain 
biological and chemical agents and the Department's biological 
and chemical capabilities. The Department has undertaken a 
review of this testing and has shared with the Department of 
Veterans Affairs all medically-relevant information so that the 
VA may appropriately determine benefits and services for 
veterans who participated in this testing.
    Yesterday, as has been noted, the Department released an 
additional 28 fact sheets that detailed the land- and sea-based 
operational testing. I first want to provide some background 
and place all of these activities in some context.
    In 1961, the Kennedy administration, led by Secretary 
McNamara, as you've noted, undertook a broad review of Defense 
programs, numbering more than 150 different management 
initiatives. There were 150 Defense programs that were to be 
looked at. During this period, obviously, there were serious 
and legitimate concerns about the Soviet Union's chemical and 
biological warfare programs. I think we've learned since that 
time that that was not an unfounded concern. We're still 
dealing with that today.
    In Secretary McNamara's review, the 112th of these programs 
reviewed was the Department's chemical and biological programs, 
and that's how the name, ``112,'' came into being. It was 
merely an ordinal number. It did not have, for the record, 
anything to do with the number of tests. An agenda for Project 
112 was soon established, and that was to be overseen by 
scientists at the Deseret Test Center.
    A subset of Project 112 was a series of tests done at sea 
known as Project SHAD, Shipboard Hazard and Defense. The 
purpose of SHAD was to identify U.S. warships' vulnerabilities 
to attack with biological or chemical warfare agents, to 
develop procedures to respond to such attacks while maintaining 
a warfighting capability. The purpose of the land-based test 
was to learn more about how chemical and biological agents 
behaved under a variety of climatic, environmental, and use 
conditions.
    Here is what we know about these operational tests so far. 
The Department planned 134 tests under Project 112. Of these 
134 tests, we know that 62 were cancelled. We know that 46 
tests did take place. We're investigating the remaining 26 
planned tests, though our preliminary findings suggest that 
most of these tests were likely not to have been performed. 
They were towards the end of the period 1970 to 1973.
    Our review of the record indicates that around 1970, 
President Nixon declared an end to the offensive-related 
biological and chemical warfare programs, and that is, in fact, 
what led to a winding down of the Deseret Test Center activity.
    Of the 46 tests that were completed, we now have released 
information on 37 of them and have turned the medical 
information over to the VA. For 5, we continue to seek the 
final reports. An additional 4 are pending review.
    We decided to release what we've released now as much as we 
could as soon as we could. I've indicated, as I did to Senator 
Rockefeller, I'm absolutely committed to getting this 
information out as rapidly and as accurately as possible.
    We've made rapid progress in our investigation, 
declassification, and release of information to the public over 
the past 4 months. What we've released since this time does 
account for the great majority of the total information that's 
been made available.
    The information we have released in the past 13 months adds 
more detail to the public record first created in 1977. There 
is some public record on this, when the Army released a report 
titled, ``U.S. Army Activity in U.S. Biological Warfare 
Programs,'' and I've got a copy of that here. It is, I think, 
useful to read to know a bit more about the program, how it 
came into being, its oversight. There were hearings at the time 
before the Senate Subcommittee on Health and Scientific 
Research.
    From these and other reports, there is documentation in 
here that, at least in the view of folks at that time--it's 
certainly open to question today, but in their view then--that 
extreme care was taken to assure the ultimate in safety, the 
highest level of review and approval, and appropriate 
governmental coordination.
    There is also evidence of coordination with State and local 
Government agencies at the time of the tests, though it's hard 
to obtain documentation on that and exactly what was said to 
whom and when.
    Discussions with scientists involved with planning and 
conducting these tests also indicate that care was taken to 
inform and appropriately protect personnel when real or harmful 
chemical or biological agents were used. Although these 
operational tests were conducted without the level of 
occupational safety and environmental procedures that we would 
expect today, we have no evidence that the tests using harmful 
substances were performed without an attempt at appropriate 
protective measures. When simulants were used, these simulants 
were not believed to be harmful to humans at that time.
    As far as we can determine today, no service members have 
suffered harmful health effects from participation in those 
tests, but obviously this is a topic that needs further 
rigorous scientific review and study, and we're working on 
this. The VA will be able to describe a study, in fact, that is 
being undertaken to look at this.
    Again, I want to emphasize that the purpose of these 
operational tests was to test equipment and capability to fight 
under these conditions when there were biological or chemical 
agents. The tests were not conducted to look at or evaluate the 
effects of dangerous agents on people. So, as such, they were 
not medical research tests on people; they were to look at 
warfighting capability.
    That said, people participated in these tests, so we are 
concerned for any adverse effect that may have occurred, 
obviously.
    Today, no research, development, test, and evaluation in 
the Department of Defense involves the exposure of human 
subjects to chemical or biological agents. The military 
services do still use simulants during operational testing and 
training following specific Federal laws, which are much more 
considerable today with the need to comply with OSHA and EPA 
standards.
    Small quantities of chemical agents are used in indoor 
controlled facilities to operate and test protective equipment 
and to operate detection and decontamination systems.
    The Department has worked diligently to release the 
medically relevant facts about this testing and to ensure that 
the VA has the information it needs to respond to questions and 
benefit claims from veterans.
    We're clearly on track to meet our stated promise, my 
promise, that we would have all relevant information released 
by next spring. I'm optimistic that we can exceed that goal 
that we set 2 or 3 months ago and will have concluded that 
effort before this time.
    Mr. Chairman, I thank you again for inviting me here today. 
I'm pleased to accept your and the other subcommittee members' 
questions.
    [The prepared statement of Dr. Winkenwerder follows:]
   Prepared Statement by Dr. William Winkenwerder, Jr., M.D., M.B.A.
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to be here today. Moreover, I want to thank you for your 
continued support of the men and women who have served in our Armed 
Forces.
    As Assistant Secretary of Defense for Health Affairs, I want to 
stress that the Department of Defense (DOD) is absolutely committed to 
an aggressive and thorough investigation of all chemical and biological 
warfare tests planned and performed by the Deseret Test Center between 
1962 and 1973. The purpose of the investigation is to provide relevant 
medical information to the Department of Veterans Affairs (VA). The 
Deseret Test Center was established as a result of Project 112. Project 
112 was one of 150 management initiatives begun by Defense Secretary 
McNamara, after his review of the Department of Defense in 1961. Under 
Project 112, the Deseret Test Center planned and conducted a joint 
chemical and biological testing program that included shipboard and 
land-based testing. Project Shipboard and Hazard Defense (SHAD) was the 
shipboard portion. SHAD was designed to test ships' vulnerability to 
biological or chemical attack.
    When I testified before the Senate Veterans' Affairs Committee in 
July of this year, I expressed that we are dedicated to finding and 
declassifying all relevant medical information from those tests. 
Additionally, we are committed to sharing this information with the VA 
by June 2003. Today, I would like to discuss what we have done, what we 
have learned, and what are currently doing.
    Since August 2000, when the Department of Veterans Affairs 
requested that the Department of Defense provide information concerning 
classified Project SHAD tests, we have developed a close working 
relationship with the VA. From the beginning of this process, VA staff 
members have met regularly with our investigators to review their 
activities and to verify that the information being sought was what VA 
needed to assist them in addressing health care matters and settle 
benefit questions. A team from our Deployment Health Support 
Directorate meets regularly with VA personnel, to ensure we provide the 
VA with the relevant medical information they need to address veterans' 
concerns.
    To date, our investigation has revealed a great deal about tests 
planned and conducted by the Deseret Test Center. The Center planned 
134 tests between 1962 and 1973. So far we have verified that 46 tests 
were conducted and 62 were cancelled. We are working to determine the 
status of the remaining 26 tests. The majority (24) were planned for 
1970-1974, a period in which plans were being made to close the Deseret 
Test Center.
    We are working closely with the Department of the Army to 
facilitate declassification of the necessary data, focusing on relevant 
medical information. Because many of the same agents remain a threat to 
our forces today, the records cannot be casually declassified. Our 
investigators identify the relevant medical information and request 
declassification of this specific information in a process that has 
been significantly expedited.
    As information becomes available, it is provided to the VA in the 
form of fact sheets. To date we have published 45 fact sheets on 41 
tests which involved more than 5,000 servicemembers. The fact sheets 
detail which ships and units were involved in tests, when the tests 
took place and what substances the crew may have been exposed to. In 
order to expedite the VA's notification to affected veterans, we now 
provide names and service numbers of service members involved in each 
test to the VA as soon as we identify the ship or unit involved; we do 
not wait for the declassification process to be completed. To date, we 
have provided the VA with the names of 4,990 veterans from 16 of 18 
known shipboard tests and are searching for classified reports which 
identify the ships used in the remaining two tests.
    Our investigation has confirmed that Deseret Test Center tests were 
primarily conducted using simulants believed to be safe in place of 
chemical or biological warfare agents. In those instances when 
potentially harmful substances were used, there is no evidence that any 
of the service members involved were exposed to them without proper 
protection. Service members were vaccinated before testing that 
involved live biological agents. If actual chemical agents were used 
they were confined to airtight sections of their ship. When 
appropriate, protective clothing was also worn. While some service 
members may not have known all the details of these tests, it is likely 
they knew that they were participating in testing due to use of 
precautionary measures. We have learned that the scientists involved 
informed senior leaders about tests using simulants. Like other 
operational activities, service members were not informed of these 
tests.
    Information is presented to the VA as quickly as possible and is 
posted on our web site, http://deploymentlink.osd.mil. A chart located 
on that web site shows the status of our investigation for each of the 
tests and is updated regularly. In addition to responding to letters, 
e-mails, and telephone calls placed to our toll-free number, we have 
also attended the reunion of the crew of the U.S.S. Power and have 
asked other crews to allow us to attend their reunions to help us 
better understand the concerns of these veterans. We have also sought 
out scientists and senior officials involved with the tests to increase 
our understanding of what happened during the tests.
    With the termination of the U.S. offensive chemical and biological 
weapons programs and with changes to operations and health research 
standards, the use of live agents on humans is severely restricted. 
With modern technology we can determine the effectiveness of defensive 
measures by using mannequins. The military services do still use 
simulants during operational testing and training. We are reviewing all 
policies governing the use of simulants during testing and training. 
Additionally, small amounts of live agent are used in training at the 
chemical school. Our objective is to ensure that concerns like those 
surrounding the Deseret Test Center tests do not arise in the future.
    Mr. Chairman, this concludes my statement. I thank you and the 
members of this committee for your outstanding and continuing support 
for the men and women of the Department of Defense. I look forward to 
addressing your questions.

    Senator Cleland. Thank you, Dr. Winkenwerder.
    Mr. Epley?

STATEMENT OF ROBERT J. EPLEY, ASSOCIATE DEPUTY UNDER SECRETARY 
   FOR POLICY AND PROGRAM MANAGEMENT, DEPARTMENT OF VETERANS 
    AFFAIRS; ACCOMPANIED BY DR. KENNETH CRAIG HYAMS, CHIEF 
CONSULTANT, OCCUPATIONAL AND ENVIRONMENTAL STRATEGIC HEALTHCARE 
                             GROUP

    Mr. Epley. Mr. Chairman, members of the subcommittee, thank 
you for the opportunity to testify about VA's activities 
surrounding Project 112 or Project SHAD.
    I do want to mention that I'm accompanied today by Dr. 
Craig Hyams. Dr. Hyams is our Chief Consultant on Occupational 
and Environmental Strategic Healthcare Group, and he will 
assist in medical-related questions.
    Based on your subcommittee request, I'll try to provide 
background on VA involvement in Project SHAD and outline our 
current efforts to identify involved veterans and to provide 
the appropriate outreach, benefits, and services to them. I'll 
also try to summarize our ongoing cooperative efforts with DOD.
    I would ask permission to submit my written testimony for 
the record.
    Senator Cleland. Without objection, so ordered.
    Mr. Epley. VA involvement with Project SHAD began in 1997 
stemming from development of an individual claim for benefits. 
We were advised at that time that all the relevant records 
about the tests were classified and that general access to the 
material was not possible. The matter resurfaced later through 
a congressional inquiry. In October 2000, the VA/DOD working 
group was established. Our agencies have worked together on the 
issue since then.
    On July 10 of this year, Under Secretary for Benefits 
Daniel Cooper testified before the Senate Committee on 
Veterans' Affairs about Project SHAD. The Under Secretary 
outlined our progress in identifying SHAD test participants. He 
related that VA had mailed outreach letters to 622 veterans, 
which has already been alluded to today, from the first three 
declassified tests and that VA/DOD efforts were ongoing to 
identify additional test participants.
    Based on a request from Senator Arlen Specter during that 
July hearing, VA submitted a report to the Senate Veterans' 
Affairs Committee and a copy to the House Veterans' Affairs 
Committee summarizing our efforts and the analyses of the SHAD 
participant contacts with VA. That report has been supplied to 
your subcommittee in advance of this hearing.
    Since the Senate Veterans' Affairs Committee hearing, VA 
has continued to work on outreach to SHAD participants and the 
VA employees. In August, we mailed 777 additional outreach 
letters to veterans who participated in 9 other declassified 
tests. We have provided medical and other background 
information about Project SHAD to our medical staff through a 
series of information letters and hotline calls. We've put out 
that same information on our SHAD web site, and we have linked 
our web site to DOD's so that people who are inquiring can find 
out about the test and about information available through the 
VA.
    Our Veterans Health Administration can now track health 
care utilization by special groups of veterans such as the 
veterans who participated in Project SHAD. This capability 
allows VA to evaluate the health of veterans every time they 
obtain care in the VA and to provide a broader and longer-term 
assessment of the healthcare status of SHAD participants.
    Also, it's important to note, on September 30, 2002, VA 
contracted with the National Academy of Sciences to conduct an 
epidemiological study of the mortality and morbidity among SHAD 
participants compared to veterans who did not participate in 
Project SHAD. This will be an independent epidemiological 
study, and it will give us the clearest possible picture of the 
health status of SHAD veterans and tell us whether their health 
was harmed by participation in the SHAD tests. The study will 
compare the current health of veterans who participated in the 
SHAD tests more than 30 years ago with the health of veterans 
from the same era who served on ships not involved with the 
testing. We're taking all the appropriate actions we can to 
learn about Project SHAD and to inform the test participants.
    Our work with DOD and the cooperation of the two agencies 
has been accelerating. In September 2002, DOD provided VA with 
information on about 2,100 additional veterans involved in the 
test. VA and DOD personnel have stepped up the declassification 
process, and DOD has helped VA by designing, building, and 
updating a computerized roster of Project 112 veterans for VA's 
use.
    We intend to share the DOD toll-free telephone number in 
our future outreach so they can access DOD, as well as VA.
    We appreciate DOD's efforts, and we understand the 
difficulty of their task. We're confident that collaboration 
will continue. While we cannot change what happened in the 
past, as you said, Mr. Chairman, in the future, VA can better 
serve the Nation's veterans if we have complete medical 
evidence on what existed whenever service members are deployed 
to areas that may place their health at risk. VA, therefore, 
supports DOD's efforts to collect greater health and exposure 
data during any such hazardous deployments.
    In conclusion, VA welcomes DOD's accelerated efforts to 
provide information about Project 112, and we look forward to 
receiving information on the remaining tests as quickly as 
possible so that we can assist veterans in addressing their 
healthcare matters and properly adjudicating their benefit 
claims.
    That concludes my testimony, Mr. Chairman, and I'd be happy 
to answer questions.
    [The prepared statement of Mr. Epley follows:]
                 Prepared Statement by Robert J. Epley
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify today on the efforts of the Department of 
Veterans Affairs (VA) to provide health care information and benefits 
to veterans who participated in tests conducted by the U.S. Army's 
Deseret Test Center, including Project SHAD.
              project shad/deseret test center project 112
    Project SHAD, an acronym for Shipboard Hazard and Defense, was part 
of the Deseret Test Center chemical and biological warfare test program 
known as Project 112, which was conducted by the Department of Defense 
during the 1960s and 1970s. SHAD encompassed a series of tests designed 
to identify U.S. warships' vulnerabilities to attacks involving 
chemical or biological warfare agents. Other Project 112 tests involved 
similar land-based tests.
    VA first learned of SHAD when a veteran filed a claim for service 
connection for disabilities that he felt were related to his 
participation in Project SHAD. In two meetings held with DOD in late 
1997, VA was advised that all relevant records about these tests were 
classified and general access to that material was not possible, but 
that it could be provided on a case-by-case basis.
    In May 2000, VA's Under Secretary for Benefits responded to a 
Congressional inquiry requesting assistance for veterans involved in 
Project SHAD. A VA/DOD workgroup was subsequently established and met 
for the first time in October 2000. Since that time, DOD and VA have 
worked together collaboratively to assess the possible health impact of 
participation in Project 112. DOD has committed to provide VA with all 
medically relevant data and a complete roster of participants involved 
in tests conducted by the Deseret Test Center in the 1960s and 1970s.
                         august 5, 2002 report
    On July 10, 2002, VA's Under Secretary for Benefits, Daniel Cooper, 
testified before the Senate Committee on Veterans' Affairs. Under 
Secretary Cooper stated that DOD had provided VA with information on 12 
SHAD tests and that VA had initiated a significant outreach program to 
locate and contact veterans. At that time, VA had mailed outreach 
letters to 622 veterans who participated in the initial three Project 
SHAD tests declassified by DOD for whom social security numbers and 
addresses had been obtained.
    DOD continues to release the names and service numbers of veterans 
of Project 112. As new names are received, VA initiates an exhaustive 
process to locate these veterans and to provide them with information 
about their participation in Project 112 and about possible health 
effects related to the chemical and biological warfare agents used in 
those tests. For SHAD veterans VA had been unable to identify, Under 
Secretary Cooper advised the committee that we had established a SHAD 
Helpline (at 1-800-749-8387), Internet web-site (at www.VA.GOV/SHAD), 
and an e-mail address (at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="085b40494c404d44584441464d485e4a49265e49264f475e">[email&#160;protected]</a>).
    During the July 10 hearing, Senator Arlen Specter, the ranking 
member, asked VA to send the committee a report about the health and 
disability status of veterans who participated in Project SHAD. A 
report dated August 5, 2002, titled ``VA Health Care and Compensation 
for Project SHAD Veterans'' was provided to the Senate and the House 
Committees on Veterans' Affairs, on August 9, 2002, and subsequently 
provided to your subcommittee.
    By that time, DOD had provided VA with the names of participants 
for two additional SHAD tests that had not yet been declassified.
    This brought the total number of names of SHAD participants DOD 
provided VA to approximately 2,900 veterans who participated in the 12 
declassified and 2 classified tests. In addition to the statistical 
data VA provided the committee regarding compensation claims previously 
filed by Project SHAD participants, VA reported that 11 of the 622 
veterans who had been mailed outreach letters in May 2002, subsequently 
enrolled for VA health care for the first time. VA also reported that 
as of August 1, 2002, there were compensation claims pending decisions 
for 28 veterans alleging disabilities due to exposure to agents and 
substances while participating in Project SHAD.
Activities Subsequent to the Report of August 5, 2002
    Working with the Internal Revenue Service, VA was able to obtain 
addresses of some participants in the remaining group of nine 
declassified tests. We had not obtained these participants' social 
security numbers at the time of the July 10 hearing. On August 15, 
2002, VA mailed outreach letters to 777 veterans who participated in 
the nine subsequent declassified tests and to participants in the 
initial three tests who DOD identified being involved in multiple 
tests. Before finalizing the language in that outreach letter, VA 
received helpful input from the Vietnam Veterans of America, which we 
incorporated in the final letter.
    Relevent medical and other background information about Project 
SHAD has been provided to VA medical staff through regular publication 
of information letters from VA's Under Secretary for Health. The 
information letters provide VA health care personnel with background 
information on Project SHAD, along with information about the potential 
short- and long-term health effects of the specific chemical and 
biological agents that DOD tells us were used in these tests. On August 
26, 2002, Under Secretary for Health's Information Letter (IL 10-2002-
016), ``Possible Occupational Health Exposures of Veterans Involved in 
Project SHAD Tests'' the third information letter in this series was 
issued, based on additional information obtained from DOD. This 
information has been made available on our SHAD web site at www.va.gov/
SHAD, which contains the information letter and other relevant 
information.
    In addition to information letters, the Veterans Health 
Administration (VHA) has engaged in an extensive outreach effort to 
ensure that VA medical centers know about SHAD veterans and their 
potential hazardous exposures during Project 112. VA hospital directors 
have been regularly apprised of Project SHAD through hotline calls, as 
have VA health care personnel involved in deployment health problems. A 
directive has been issued by VHA that makes facility directors 
responsible for ensuring that enrolled SHAD veterans requesting care 
are clinically evaluated by knowledgeable health care providers. 
Additionally, as suggested by the Vietnam Veterans of America, the VA 
and DOD web sites, which provide information on Project 112, have been 
linked to provide ready access to health data among VA and DOD health 
care personnel and veterans.
    To date, relatively few Project 112 veterans have sought care from 
VA in response to the recently released information. Among 1,399 
Project 112 veterans who have received a notification letter since May 
2002, inviting them to receive a clinical evaluation from VA if they 
have any health concerns, 31 veterans have newly enrolled for VA health 
care. VA will continue to provide up-to-date information on Project 112 
to its health care providers in order to ensure that these veterans 
receive optimal health care.
    VA is engaged in a comprehensive process to augment its medical 
record system and to connect computerized health databases into a 
coherent network. Because of progress in integrating VA's computerized 
health databases, VHA can now track health care utilization by special 
groups of veterans such as the veterans who participated in Project 
SHAD. For evaluating the health of Project SHAD veterans who come to VA 
for health care, the use of these standard health care databases 
provide several important advantages over special clinical programs, 
which have been used in the past to evaluate particular cohorts of 
veterans, such as Vietnam and Gulf War veterans. The use of VA's health 
databases allows VA to evaluate the health utilization of veterans 
every time they obtain care in the VA, not just on the one occasion 
that they elect to have a registry examination. This will provide a 
much broader and longer-term assessment of the health status of these 
veterans because many veterans return frequently for VA health care, 
and because veterans are often seen in different clinics or even 
different parts of the country for specialized health care.
    In September 2002, DOD provided VA with the names and service 
numbers of about 2,100 additional veterans who were participants in 
tests just recently declassified. VA is currently matching this data 
against its Beneficiary Identification and Records Locator Subsystem 
(BIRLS) and Compensation and Pension Master Record file to identify and 
extract data for these individuals, to include social security numbers 
where available. To date, DOD has provided VA with the names of about 
5,000 individual participants of Project 112.
    On September 30, 2002, VA entered into a three million dollar 
contract with the Medical Follow-up Agency of the National Academy of 
Sciences to conduct, over the next 3 years, a formal epidemiological 
study of mortality and morbidity among SHAD participants in comparison 
with veterans who did not participate in Project SHAD. In contrast to a 
special clinical program, which cannot provide scientific data about 
the health risks of this group, this independent, epidemiological study 
will give us the clearest possible picture of the health status of SHAD 
veterans and tell us whether their health was harmed by participation 
in SHAD tests. The study will compare the current health of veterans 
who participated in the SHAD tests more than 30 years ago with the 
health of veterans from the same era who served on ships not involved 
with the testing. The study will also compare the mortality rates of 
the two groups.
    We are looking to multiple sources to identify Project 112 veterans 
and determine their social security numbers, as recommended by veterans 
service organizations. For example, on September 26, 2002, the names 
and service numbers for Project 112 veterans whom we had not been able 
to identify were matched against the National Cemetery Administration's 
database. The match produced social security numbers for 58 veterans 
and the date of death for 24. VA is also working with the National 
Personnel Records Center in St. Louis to review personnel and medical 
files for veterans for whom we have been unsuccessful in finding social 
security numbers. The social security numbers will be used to obtain 
addresses and initiate outreach to more Project 112 veterans.
    Through the week ending September 27, 2002, VA has received 417 
calls on its toll-free SHAD Helpline. As of September 30, 2002, VA had 
compensation claims pending decisions for 53 veterans alleging 
disabilities due to exposure to agents and substances while 
participating in Project 112. Just as the number of compensation claims 
has increased, so has the number of veterans recently enrolled for VA 
health care. As noted earlier in my testimony, since May 1, 2002, 31 
veterans who received outreach letters alerting them of possible 
adverse exposures, have newly enrolled for VA health care for the first 
time. High quality medical care can be provided right now for each SHAD 
veteran who seeks a clinical evaluation in the VA.
DOD Working with VA
    As I previously stated, DOD has committed to provide VA with all 
medically relevant data and complete rosters of participants involved 
in tests conducted by the Deseret Test Center. They've stepped up 
efforts to complete the declassification process as quickly as possible 
and have committed to sharing all information with VA by June 2003. In 
fact, VA just recently received Fact Sheets for 27 additional tests.
    DOD and VA personnel meet regularly to discuss the status of the 
declassification process. The working relationship between the two 
Departments continues to improve. In addition to stepping up the 
declassification process, DOD has helped VA by designing, building, and 
updating a computerized roster of Project 112 veterans for VA's use. 
DOD has also agreed to allow VA to include its toll-free phone number 
in future outreach letters so that veterans who need help verifying 
participation in Project 112 or who have questions about the tests 
themselves, can communicate directly with DOD representatives.
    We appreciate DOD's efforts. We understand that it's problematic to 
locate and declassify records that are 30-40 years old. We also 
understand that, according to DOD's testimony here today, these records 
cannot be casually declassified because many of the same agents still 
remain a threat to our military men and women.
    While we cannot change what happened in the past, in the future, VA 
can better serve the Nation's veterans if complete medical evidence 
exists whenever service members are deployed to areas that may place 
their health at risk. VA, therefore, supports DOD's efforts to collect 
greater health and exposure data during hazardous deployments.
    In conclusion, VA welcomes DOD's accelerated schedule for providing 
relevant information about Project 112 and the veterans who were 
involved in these tests to us. VA looks forward to receiving 
information on the remaining tests as quickly as possible so that we 
can assist veterans in addressing their health care needs and properly 
adjudicating their benefit claims.
    This concludes my testimony. I will be happy to answer any 
questions that the committee may have.

    Senator Cleland. Thank you, Mr. Epley.
    Dr. Winkenwerder, it's interesting, in today's paper we 
find that the Senate Intelligence Committee is trying to get 
information declassified from the CIA about Saddam Hussein's 
biological and chemical weapons, and we're trying to get 
information declassified from our own Government about 
biological and chemical weapons used on our own soldiers long 
before Saddam Hussein ever came to power. Do you find that 
ironic?
    Dr. Winkenwerder. Well, what I would say is that biological 
and chemical weapons are a scourge that have been with us 
since, as my reading of the history is, a good part of the last 
century, and it is clear that we have had concerns of our own 
and had concerns about what our adversaries were doing.
    I think that my view, honestly, Senator, is that the folks 
at that time were honestly trying to do what they thought was 
the right thing to protect this country. That said, in 
retrospect, and even applying a better standard to that time, 
in that day, more could have been done and should have been 
done to inform those who participated in those operational 
tests of risks that might be associated with their 
participation. I think we owe it to our service members to give 
them that kind of information. I think we're working today to 
do that, to expose risk wherever we find it and get it right 
out in front of people so that we can protect them.
    Senator Cleland. Congressman Michael Thompson, as has been 
pointed out today, has introduced legislation on the House side 
that provides for full disclosure on Project 112 and SHAD so 
that the veterans and the VA can understand what happened. All 
of us present at this hearing today are cosponsors of similar 
legislation on the Senate side.
    Does the administration support this legislative effort? If 
not, why not?
    Dr. Winkenwerder. We support making this information 
available. That's why we're taking these steps. I think it is 
unfortunate that those requests that were made apparently 
during the last 10 years or so did not produce answers. But 
there should be no question about this Department's, this 
administration's, commitment to get this information out.
    I came on board in September 2001 and, frankly, did not 
become aware of this until the spring of this year, and upon 
learning of that, had no hesitation that this is the kind of 
information that we need to get out. It's taken a lot of work 
and effort.
    I think we're doing, right now, what the legislation would 
have us do. So, in principle, we're agreeing with the purpose.
    I haven't had the opportunity to actually look at the 
legislation to see it in detail and so can't give you an answer 
on that just now, but there shouldn't be any doubt about our 
commitment to move forward and produce the information that 
people deserve to have.
    Senator Cleland. Hopefully the administration will look 
positively on the fact that we've included the essence of our 
bill in the pending National Defense Authorization Act and have 
asked the conferees to expand it to include all of Project 112. 
I'm hopeful that the conferees will agree to include it.
    I would like to go now into our round of questions. Dr. 
Winkenwerder, what assurances can you give us that DOD is not 
conducting or planning to conduct chemical and biological tests 
on our current military personnel?
    Dr. Winkenwerder. We've asked that very question, and my 
office and Under Secretary Chu's office, who is responsible for 
all personnel and readiness issues in the Department, Dr. Chu 
has sent a letter to Under Secretary Aldridge, who oversees all 
of these programs, as well as secretaries of all the services, 
to assure us that the things that we're doing today in no way 
bring people into harm or risk that they should not be brought 
into.
    Obviously, there are some kinds of training that we do 
where, at the end stage, after using simulants, in a 
controlled, closed-air environment, chemical agents are used. 
People have full gear on, obviously, in order to gain their 
confidence about dealing in a chemical or biological 
environment. Those substances are used, but I have been assured 
that there's no open-air testing or anything that would 
remotely look like this series of tests.
    Senator Cleland. Mr. Epley, have there been any discoveries 
of medical records that would indicate that the military 
service members may have suffered side effects as a result of 
exposure during SHAD tests?
    Mr. Epley. Mr. Chairman, so far the number of claims that 
we've received has been limited. We did a review of our claims 
system at the end of September. We had 53 pending claims from 
people who believe that disabilities may have been associated 
with Project SHAD. Those claims are pending right now.
    We also looked at the number of veterans currently 
receiving disability compensation and found that we had 299 
veterans who are on the list of SHAD participants, who had 
filed claims independently, and who have one or more service-
connected disabilities. The array of their disabilities does 
look like the rest of the veterans that we're paying 
compensation to, generally. The most common disabilities on 
that list were hearing loss, scars, and musculoskeletal 
disabilities, like knee and lower back conditions. I believe 
the same array, although it's a very small sample, is true on 
the medical side.
    Dr. Hyams. That's true. The SHAD veterans have been 
accessing our healthcare system at about the same rate as other 
military veterans. But right now, it's sort of a moving target. 
We keep getting names from DOD about the participants in the 
SHAD experiments. We're going to have to update our data as we 
go along. But up to this point, they've been accessing the VA 
healthcare system at about the same rates.
    I'd like to add, I think the best chance of finding out 
whether or not their health was harmed back during the Project 
SHAD testing is through our IOM study, the Institute of 
Medicine, and the study that they will be conducting. It'll be 
a comprehensive epidemiologic study, independently-conducted by 
a first-rate group of researchers. It'll really tell us whether 
or not their health was harmed in the past.
    Senator Cleland. As a former head of the Veterans 
Administration, I have a sense of deja vu all over again here. 
In 1978, the question of Agent Orange broke. We did a serious 
look at the accessing of the VA healthcare system by Vietnam 
veterans, and they were not using it any more or less than any 
other veterans. That didn't tell us a whole lot.
    What ultimately did tell us a lot was beginning an 
epidemiological study and really sticking with it over a period 
of time. As time went on, in the 1970s and 1980s, we began to 
see that Agent Orange, the dioxin in the defoliant that was 
used in Vietnam, that terrible chemical agent was impacting 
more lives than we assumed.
    I hope the Veterans Administration, as you get the 
information from DOD, will stick with it over a period of time 
and continue to communicate to veterans and inform them of the 
services available.
    Dr. Winkenwerder, one of the outcomes of the Gulf War was 
stories that DOD administered shots or medication and vaccines 
to combat possible chemical and biological attacks on our 
forward-deployed forces. Now that we're thinking about going 
back into the Persian Gulf area, what has DOD put in place to 
ensure that military men and women are told what's being 
administered to them? What has DOD done to ensure that military 
personnel medical records are up to date and accurate, 
especially in a combat situation?
    Dr. Winkenwerder. Thank you, Senator, for the question. We 
believe that we've made considerable progress over the 1990s in 
our efforts to prepare for and mitigate the risks against the 
use of chemical or biological weapons. That issue has been my 
top priority since I've been at the Department, starting last 
fall with our effort to get licensure for an anthrax vaccine, 
our subsequent efforts to work very closely with the Department 
of Health and Human Services on the matter of smallpox, and our 
efforts to work collaboratively across all three services and 
with the acquisition community on issues that relate to medical 
surveillance, recordkeeping systems, and things like detectors 
and protective clothing and equipment.
    I believe that, although there's obviously no way to give 
100 percent assurance, if we face that horrible situation, 
about the outcomes, I believe that we're as well prepared as we 
can be and we're taking every step we know how.
    Senator Cleland. Thank you very much, Doctor.
    Senator Akaka, any questions?
    Senator Akaka. Thank you very much, Mr. Chairman.
    Dr. Winkenwerder, I understand you believe the universe of 
veterans involved is about 5,500.
    Dr. Winkenwerder. Yes, sir.
    Senator Akaka. Do you have any idea how many civilians have 
been exposed?
    Dr. Winkenwerder. No, sir. I don't know the exact number 
for that. I do know that, in the case of Hawaii, it is likely 
with the use of the simulant Bacillus globigii, thought to be 
harmless, that there may have been many civilians, into the 
thousands, that could have been exposed with an air release of 
that substance. There could have been small handfuls possibly 
in the areas of Puerto Rico or Florida that are the two 
additional locations that we think. In all other cases, we 
don't believe that there's any evidence from the record or 
anything that we can learn today that says that other civilians 
might have been exposed.
    Senator Akaka. The reason for this was, they were looking 
for a tropical island setting, and so Hawaii suited that. Was 
this done over both land and water?
    Dr. Winkenwerder. Yes.
    Senator Akaka. Do you have any plan to provide notice to 
civilians?
    Dr. Winkenwerder. We have had communications. I did speak 
with the Governor just about this issue the day before 
yesterday, I believe it was, and I think Secretary Chu has 
talked to Senator Inouye. We actually tried to reach your 
office, as well, and I'm sorry we didn't get connected.
    We are making this information available. I think it is 
unfortunate. It is going to be difficult, because of the time 
lapse, to know which individuals were there at that time and 
whether there's been any adverse effect. Again, this particular 
simulant occurs naturally in the environment, so it should not 
have created any problem, certainly for healthy people. I think 
today we've learned more, we didn't know these things then, 
that some of these kinds of agents could pose a risk for people 
with compromised immune systems.
    Senator Akaka. At yesterday's press conference, you stated 
that thousands of civilians were exposed to simulant BG.
    Dr. Winkenwerder. Yes.
    Senator Akaka. Which was released over Oahu in May and June 
1965.
    Dr. Winkenwerder. I think that's correct.
    Senator Akaka. What were the specific dates of these tests?
    Dr. Winkenwerder. Let me turn to Dr. Kilpatrick for that.
    Dr. Kilpatrick. Again, we can get those from the specific 
records. They were done as trials in a series. They were 
released at different locations at different times. I think to 
get you that accurate information, we'll have to take that for 
the record and respond.
    Senator Akaka. I certainly would want to request that 
information.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Akaka. Which or how much BG was used during those 
tests?
    Dr. Kilpatrick. Again, that is in the classified 
information, but we can provide that to you. The reason we've 
not extracted all of those concentrations is, in dealing with 
the VA, our initial purpose was to get medically-relevant 
information for the VA to be able to take care of veterans. 
Their concern was any exposure, regardless of concentration, 
would be presumed to be sufficient concentration to cause 
illness if those agents are recognized to cause illness. So, in 
the information we release to the public, we've not focused or 
tried to determine concentrations. But what amount was released 
is in the classified information, and we can certainly provide 
that to you.
    [The information referred to follows:]

    Information on quantities and concentrations of agent or simulant 
used in Project 112/SHAD testing remains classified. The question posed 
by Senator Akaka during testimony was addressed by Dr. Kilpatrick in a 
separate classified briefing. That briefing occurred on October 18, 
2002, at a secure briefing site in the U.S. Capitol Building to Senator 
Akaka and selected staff members. There were no follow-on questions or 
tasks from that briefing.

    Senator Akaka. After going through 5,000 pages of 
documentation, did you or your staff come across any evidence 
of adverse health impacts on the civilian population?
    Dr. Kilpatrick. We saw nothing regarding the civilian 
population in any of the records of these tests. We also have 
seen nothing in the records of anything with the military 
personnel who were involved in these tests. However, we have 
found one record that said, for the 11-year duration of the 
Deseret Test Center, that only four people were infected, and 
they were treated and cured. We don't know who they were. We 
don't know what the infection was. We are continuing to look in 
the records, and we'll keep looking until we either decide that 
there's nothing more to look at or we find an answer.
    But it indicates that those people who were involved in 
this testing were appropriately protected when live agents were 
used. Certainly when we see the medical effects, we've not seen 
anything in those records. Now, those are not health records.
    For the shipboard tests, we've looked at ship's logs, not 
the individuals' health records, but shipboard logs, and they 
do not indicate any evidence of illness outbreaks in the crew 
during or immediately subsequent to the testing.
    Senator Akaka. The fact sheet states that BG is considered 
harmless for, and Dr. Winkenwerder used the word, ``healthy'' 
individuals. The question is, what are the consequences for 
individuals who are not considered healthy? What is your 
definition of healthy?
    Dr. Kilpatrick. We are not trying to define whether this 
Bacillus globigii (BG) is a harmful agent or not; we're looking 
at what the EPA and CDC have put out as far as hazard from 
these organisms. Each of those agencies have said that this is 
an organism that is present in soil, as many as 100,000 to a 
million spores per gram of soil, that this is not pathogenic or 
toxigenic to humans.
    However, when we take a look at people being hospitalized 
and cultures from people, the organism has been cultured from 
people who have had intravenous lines who are immunocompromised 
in a hospital. It has been cultured from lungs, from meninges 
of critically ill people. It is an organism that is in our 
environment. It certainly can become an organism that can cause 
illness and infection in an immunocompromised person, one under 
chemotherapy, those sorts of conditions.
    Senator Akaka. Mr. Chairman, I have further questions. I 
don't know whether you have a limit of time here.
    Senator Cleland. If you have one more question that you'd 
like to offer, that would be fine.
    Senator Akaka. Dr. Winkenwerder, while a lot of the focus 
so far has been on the Big Tom test, because of the exposure to 
civilians, I was very concerned to learn about the release of 
sarin in the testing that occurred outside of Hilo on the Big 
Island, called Waimea Forest Reserve. How much sarin was used 
in the comparison to the simulant?
    Dr. Winkenwerder. I'm going to turn to Dr. Kilpatrick 
again, because I don't know the answer to that question.
    Dr. Kilpatrick. Again, the purpose of that study was to 
take a look at different delivery systems, bomblets in a jungle 
environment, to see what is the release amount and what is the 
duration of that nerve agent being present.
    There, the area used was a remote area. There were no 
people there. The monitors that conducted the test were looking 
at the persistence of that agent in that environment over time. 
Sarin is an agent that degrades fairly quickly, in a matter of 
hours to days, depending on sunlight, humidity, and many other 
conditions. It would be rendered nontoxic in that environment.
    So, again, we can provide for you specifically what were 
the numbers of those bomblets that were released. That, again, 
is part of the classified information.
    [The information referred to follows:]

    Information on quantities of bomblets containing agent or simulant 
used in Project 112/SHAD testing remains classified. Dr. Kilpatrick 
addressed the question posed by Senator Akaka during testimony in a 
separate classified briefing. That briefing occurred on October 18, 
2002, in a secure briefing site in the U.S. Capitol Building to Senator 
Akaka and selected staff members. There were no follow-on questions or 
tasks from that briefing.

    Senator Akaka. Yes, and of what you said my interest would 
be, how close were the closest civilians to that test? What 
kind of coordination was done with local officials?
    Dr. Kilpatrick. Sir, all we have to look at is the records 
that we've been able to find, and it just says that there was 
coordination with local officials. As Dr. Winkenwerder said, 
we're not sure what that means. Was that a telephone call? Was 
that a sit-down conference? The U.S. military had done an 
agreement with Hawaii to conduct research in those reserves. 
How much detail of what that research was, I don't know.
    Senator Akaka. How many people do you think were exposed to 
sarin gas?
    Dr. Kilpatrick. I don't believe anybody was. I think that 
if they had been, we would have certainly seen something in the 
records. There would have been a person who would have become 
critically ill.
    Senator Akaka. Finally, if you can answer, what would the 
effects of sarin be if one were to be exposed to it?
    Dr. Kilpatrick. Again, that depends on the concentration. 
If it's what we call the ``clinically effective'' 
concentration, you would start to have difficulty with vision, 
tearing, difficulty with breathing. This, if the concentration 
is high enough, will lead to stupor, to convulsions, and then 
eventually to paralysis and death, and that happens in a very 
short time frame.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Senator Cleland. Thank you, Senator Akaka.
    Senator Nelson?
    Senator Bill Nelson. Thank you, Mr. Chairman. Thank you 
again for holding this hearing.
    Gentlemen, thank you for coming and participating. I 
realize that a lot of this occurred long before your watch. So 
what we're trying to do is to get to the bottom of it and see 
how best to protect the interests of the veterans, what we can 
learn from the mistakes that were made in the past so that 
they're not repeated in the future. In order to do that, we 
have to have the cooperation of the Defense Department.
    Now, you can tell by my opening statements, I have not been 
a happy camper with the Defense Department, and I just want you 
all to know that we're going to get to the bottom of this. We 
have the full support of the Chairman of this committee and the 
ranking member of this committee, Senators Levin and Warner. We 
have the support of Senator Rockefeller and the Veterans' 
Affairs Committee, so we're all in this together. I have 
visited with them ad infinitum, and I'm delighted that it's in 
the hands of a Chairman who is an expert in this area, as the 
former head of the VA, as our Chairman, Senator Cleland, is. We 
need your help. We need your cooperation so that we can get to 
the bottom of this.
    Now, you said there were about 134 tests, and some 62 of 
them were cancelled, so you're still looking at about 72 tests.
    Dr. Winkenwerder. Forty six we know about, with certainty, 
that they were conducted. Information, as of yesterday, has 
been released on 37. Take that additional 9 plus 37 is 46. 
Those are in process through declassification, and we're 
hopeful to release that soon.
    We couldn't get all that work done as of today. We wanted 
to release as much as we could as quickly as we could. If you 
add the numbers up, that leaves 26 additional tests. We 
believe, because of the timing of the schedule of when those 
were planned, that it's likely that most of those were canceled 
and were not conducted, but we don't know that.
    I've asked Dr. Kilpatrick and his staff to--and we've 
placed additional people and resources to move with all due 
speed, and they have done a great job. People have worked 
overtime over the last several weeks and months to get this 
information.
    Senator Bill Nelson. Well, we appreciate it very much. You 
had these fact sheets that describe the tests. When did the 
declassification occur on these 28 fact sheets?
    Dr. Winkenwerder. Within a matter of the last few days, 
they came through in a batch. Monday a week ago.
    Senator Bill Nelson. Monday a week ago?
    Dr. Winkenwerder. Right.
    Senator Bill Nelson. Today is Thursday, so about 11 days 
ago?
    Dr. Winkenwerder. Yes.
    Senator Bill Nelson. Why did you wait to release them until 
2 days ago?
    Dr. Winkenwerder. There was a security review. There is 
nothing, sir, to the timing of this other than--and I just 
would assure you that we're--as soon as the information becomes 
available, we're releasing it.
    Senator Bill Nelson. What is the security reason that you 
wait 10 days to release something when it's been declassified?
    Dr. Winkenwerder. This is a process that involves, well, 
let me let Dr. Kilpatrick describe it.
    Dr. Kilpatrick. I've been intimately involved with this 
process, sir, and when we submit the original records with what 
we request to be declassified, medically relevant information, 
there is a process that the Army goes through. Normally, that 
had been taking 6 weeks.
    When we had this bolus of information, they actually sped 
this up and got it done in a period of about a week and a half, 
which was focused solely on this area. As soon as that came 
back declassified, we had to then construct the fact sheets--
take the information out of the declassified documents and put 
them into the fact sheets. The fact sheets then had to be 
submitted for security review. That, again, that could be a 2- 
to 3-week process, was expedited.
    That information was available probably at the earliest, 
all put together and packaged, about Saturday evening, about 
11:00. My staff and I had it together, because we had to have 
it ready for release and to present for the press conference 
yesterday.
    So that is the timing. There's no intention at all of 
holding that information up. It's a matter of getting it 
packaged for release.
    Senator Bill Nelson. All right. I asked the Defense 
Department in January about the tests that were conducted in 
Boca Raton in the 1950s. The answer that I received was that 
this was classified. There was no explanation of going through 
the declassification method. There was no attempt on behalf of 
the Department of Defense to say, ``We will bring the 
information to the committee to share with you the classified 
material.'' So tell me, where do we stand with regard to the 
Boca Raton 1950s test?
    Dr. Winkenwerder. Senator, if you could, at some point, 
provide me with the information as to whom those letter or 
letters were sent and when, I will follow up and track that 
down, and we will get back to you. I don't believe it came to 
my office. We are involved in the health area, because this is 
related to, obviously, health concerns.
    Senator Bill Nelson. Well, that's part of the problem.
    Dr. Winkenwerder. Yes.
    Senator Bill Nelson. Because sometimes one hand doesn't 
know where the other hand is.
    Dr. Winkenwerder. That can be true. So I will follow up for 
you if you'll let me know.
    Senator Bill Nelson. I would appreciate it, because the 
only recourse we have is to go straight to the Secretary.
    Dr. Winkenwerder. Yes. Even then and there, depending upon 
someone in that office using his or her best judgment about 
where to send this as it goes into the organization for a 
response, we may or may not know about it. If it related to a 
health concern for veterans, we should receive it. Obviously 
we've been on point for this issue, though obviously the 
testing program itself and facts that are related to that 
really were a Department of Army responsibility that goes back 
many years.
    Senator Bill Nelson. Mr. Chairman, would you want to go on 
and question? Because I have a number of questions, and it 
doesn't make any difference; I'm prepared to stay here as long 
as possible, as long as it takes.
    Senator Cleland. Well, go right ahead and use a little 
extra time. I did. Senator Akaka did. You can.
    Senator Bill Nelson. I'm curious. There were multiple tests 
in Florida. There were tests in the public domain in Panama 
City and Key West; in the public domain at what is Cape 
Canaveral: this is listed as Cape Kennedy because the test was 
in 1962. In fact, in 1962, it was named Cape Kennedy, although 
its name was officially changed to its old traditional name, 
Cape Canaveral, shortly thereafter. Another one in the public 
domain in Yeehaw Junction; another one in the public domain in 
Avon Park on four different dates; and a second one in Yeehaw 
Junction. Those are all in the public domain.
    Then there were tests not in the public domain. This is 
just Florida--Eglin Air Force Base, 1953, 1954, 1956, 1957, 
1958, 1969; also not in the public domain at Eglin in 1951; not 
in the public domain at Avon Park in 1954, 1956, and 1957.
    Out of all those tests, only one, Yeehaw Junction, testing 
basically the effectiveness of a weapons system on an F-4 to 
reduce wheat crop yields, which was done between October and 
December of 1968, that's the only one that's been released. Can 
you explain why the others haven't been released?
    Dr. Winkenwerder. Well, what we were looking at, what we 
were asked to look at, what we have done is to look at the 
testing that was under the auspices of the Deseret Test Center 
program from 1962 to 1973. So from your description, these 
other tests look like they went back into the 1950s, and I 
would presume were conducted under a different programmatic 
oversight, and I, candidly, do not know who had that oversight 
responsibility or where it reported to.
    Senator Bill Nelson. A lot of these tests emanating from 
what you have released with regard to Yeehaw Junction were 
trying to figure out how we could kill the Soviet wheat crop in 
the midst of the Cold War. If we got into a war with them, how 
were we going to starve them? Why were the tests conducted in 
Florida? We don't grow wheat in Florida.
    So likely what was happening--you put this material that 
was going to kill the wheat, in a spray mechanism; in this 
case, in Yeehaw Junction, you put it in an F-4. They'd put out 
pots of wheat and then see what the effect was. That way we 
weren't going to damage our own wheat crop, which was more in 
the northern and central plains of the United States.
    I am led to believe, which is why I asked for this last 
January, that all of this started back in the 1950s in Boca 
Raton. You can see the concerns that we have if there is a 
public health hazard--and I'm not suggesting there is--but 
there are 60 acres that's suspiciously not used at the north 
end of the Boca Raton Airport and Florida Atlantic University.
    Dr. Winkenwerder. Today?
    Senator Bill Nelson. Today. Everything else is developed. 
I'm going to show aerial photographs tomorrow that I have being 
prepared for me as to the old facilities and where the tests 
were conducted, and then match that to the 60 acres that are 
undeveloped today that have high intensity development all 
around it. So I want to see if we have a problem.
    By the way, I just want you to know, I'm a little sensitive 
about this, because where does a lot of this stuff start? It 
starts in Florida. Where did anthrax start? It started in 
Florida. We have the AMI building in a corporate park closed up 
because nobody will accept responsibility right now on how 
we're going to clean up the anthrax, and that's only, 
interestingly and just coincidentally, a stone's throw from 
this particular site that we're talking about next to Florida 
Atlantic University. So I would certainly appreciate some 
answers on behalf of the people from Florida.
    Now, turning to another one of the tests that you have 
declassified on the SHAD, this particular one called 
``Copperhead,'' and this is the one that our veteran from 
Florida, George Brocklebank, will be testifying on later. This 
fact sheet tells us that, in 1965, off of Newfoundland, his 
target ship was being tested by laying down a mist of spray 
from an A-4B aircraft of Bacillus globigii, BG, and zinc 
cadmium sulfide. Before he testifies, do you want to give us 
some of your impressions about that, please?
    Dr. Winkenwerder. I'm going to turn to Dr. Kilpatrick, 
because I believe he'll be most familiar with the details of 
that particular test.
    Dr. Kilpatrick. This testing procedure uses Bacillus 
globigii, which is also called today Bacillus subtilis, a 
bacteria that behaves much like anthrax. It forms a spore, and 
its aerodynamics and its longevity are much like anthrax. It is 
that same related bacterium, but it is believed to be a 
harmless bacteria to humans. At the other end of that spectrum 
is Bacillus anthracis, which we know is dangerous.
    This testing was done in multiple climates using the 
Bacillus globigii and the zinc cadmium sulfide as a tracer to 
say where is the cloud going, to take a look at ships' 
operability in different conditions--steaming, battle 
conditions, buttoned up--and to determine how far would that 
penetrate into the ship, how good were the protective measures.
    The scientists that we've talked to--again, we weren't 
there--telling us, ``Were people informed?'' We've heard from 
veterans that they knew nothing about what was going on. What 
we were told is that the scientists informed senior leadership. 
There apparently was no effort made, with simulant testing, to 
inform individuals of what the test was about, what the threat 
could or could not be to them, and what the purpose of the test 
was.
    Clearly, the test done off Newfoundland was done to 
determine effectiveness of those protective measures or 
vulnerability in cold conditions. Looking at the temperatures 
at the time, they were in the 30s or below. So that is a 
procedure that was used, not only there, but in ships southeast 
of Hawaii, in the ocean and off the coast of San Diego. As 
you've talked about tests done in Florida in the 1950s, we also 
have indications in this 1977 Army report being done in the 
1950s on ships out of Norfolk, Virginia.
    Senator Bill Nelson. So this was all a part of SHAD?
    Dr. Kilpatrick. That's right.
    Senator Bill Nelson. In Mr. Brocklebank's testimony that 
we'll receive in awhile, it was up in Newfoundland, but it's 
the same thing that Senator Akaka was talking about, the test 
down off of Hawaii and elsewhere in the Pacific?
    Dr. Kilpatrick. Correct.
    Senator Bill Nelson. Do you see any hazardous health 
results by what information you have gathered thus far?
    Dr. Kilpatrick. Again, what we're looking at is documents 
from that time. There's no indication of people becoming ill at 
that time. Looking at what could be long term health effects, I 
think the VA has accurately reflected what we believe they're 
doing, an epidemiological case-controlled study, is the best 
way to determine is there any long-term health effect. The 
medical literature does not indicate that exposure to this 
organism results in a recognized disease or symptom process in 
the future.
    Senator Bill Nelson. Why were these sailors not informed 
that they were going to be test guinea pigs?
    Dr. Kilpatrick. Again, I think it comes down to people 
doing the tests, and I'm not trying to defend them; I'm trying 
to tell what we see in the documents, that these tests were 
done as operational tests. There was no effort to take a look 
at, ``How do these organism affect human beings?''
    I have talked to sailors who said, ``Well, I had nose 
swabs, or I had throat gargles taken.'' Again, with simulants, 
the objective of the test was to say, ``Dropping this amount 
from this airplane at this height, what sort of amount do you 
get on a ship?'' There is a very fine line between offensive 
and defensive, and I think that some of these tests may have 
been designed to understand if we had to offensively use the 
real agent, what the delivery capability would be?
    Senator Bill Nelson. We have a vote in progress, Senator 
Akaka, so if you're chairing, we're going to have to recess and 
go vote. But I want to continue a line of questioning. On a 
number of these fact sheets that they have released on these 
tests, there have been indicated the side effects that can 
occur from the materials or simulants that were used in the 
test, and I'd like you to go through each one of those and to 
tell us how that matches up with what you're finding in your 
medical exams.
    Shall we go vote?
    Senator Akaka. Yes. Do you want to come back and question 
the same panel?
    Senator Bill Nelson. Oh, yes, sir. I do.
    Senator Akaka. All right.
    Senator Bill Nelson. Absolutely.
    Senator Akaka. Then the subcommittee will recess until the 
Chairman returns. [Recess.]
    Senator Bill Nelson. All right, the meeting will come to 
order as we resume from the recess. We apologize, but this is 
the nature of the legislative process that, when votes are 
called, you have to go to the floor to vote. We are on the Iraq 
resolution, so it's a very important series of votes.
    Continuing on with the questioning that I had before, could 
we get you to enumerate for us, in the SHAD tests, a number of 
the agents that were used, whether or not they were thought to 
be not harmful at the time, and what have we found about them 
now? Let's go through. Let's list those for the record.
    Dr. Winkenwerder. Okay. Let me list the simulants, starting 
with the chemical agents. What we know today is the following 
were used--bis-2 ethylhexyl hydrogen phosphite. I'm sure these 
are not commonly known, except to chemists and such types, what 
these agents are. That agent, bis-2 ethylhexyl phthalate, 
DEHP----
    Senator Bill Nelson. All right, but before you leave the 
bis hydrogen phosphite, what is the harm of that agent having 
been used, that we know now, regardless of what it was thought 
of then?
    Dr. Winkenwerder. Okay. I'm going to turn to Dr. 
Kilpatrick.
    Dr. Kilpatrick. Again, we have taken a look at information 
by chemists. We've relied heavily on the Centers for Disease 
Control's (CDC) Agency for Toxic Substances and Disease 
Registry to enumerate in these information sheets, fact sheets, 
for people what are known side effects of exposure to these 
agents. We certainly, I think, have tried to paint what the 
worst-case scenario would be, and it's not data or information 
generated or created by Department of Defense, but what's out 
there in medical science. I think that the facts sheets will 
clearly enumerate what those are.
    I think the question for the veterans is, what are the 
health problems that they're having, and is there an 
association between that kind of exposure and today's current 
problems or problems that they've had over the years? I think 
that, again, we're not going to be able to answer until the VA 
study is done.
    Senator Bill Nelson. Okay. Now, let's answer the question. 
Pull out the fact sheets, and let's go through each one of 
these and tell us what are the side effects.
    Dr. Winkenwerder had just mentioned bis hydrogen phosphite.
    Dr. Winkenwerder. That's right.
    Senator Bill Nelson. What are the side effects?
    Dr. Winkenwerder. If it's okay with you, Senator, I'll read 
all of them, giving Dr. Kilpatrick a little bit of time to try 
to find each one, and we will go through each one.
    The second chemical simulant, di(2-ethylhexyl) phthalate, 
DEHP.
    Senator Bill Nelson. All right, but just listing all these 
things isn't going to get to what I want.
    Dr. Winkenwerder. I understand.
    Senator Bill Nelson. That's just going to be a bunch of 
words.
    Dr. Winkenwerder. I'm just trying to give it to you for the 
record, and then we'll go through each one, if that's okay.
    Senator Bill Nelson. Well, since you all are not prepared 
to answer this, let me go through it for you.
    Dr. Winkenwerder. Okay.
    Senator Bill Nelson. All right. BG, it's thought to be 
harmless to humans. It is a biological tracer for anthrax. 
Typical household bleach and water will kill BG. It is not 
known to consistently cause disease in healthy adult humans. 
Would you agree with that?
    Dr. Kilpatrick. Yes, sir.
    Dr. Winkenwerder. Yes.
    Senator Bill Nelson. All right. Betapropiolactone, there is 
evidence that it is a carcinogenic. Is that correct?
    Dr. Kilpatrick. That is correct. In information from the 
Agency for Toxic Substances and Disease Registry, in cell 
culture and animal studies it has been shown to cause cancer.
    Senator Bill Nelson. It was used as one of these agents.
    Dr. Kilpatrick. It was used as a decontaminate after 
Bacillus globigii had been sprayed over a ship. It was used to 
determine the ability to decontaminate a compartment that was 
contaminated.
    Senator Bill Nelson. Okay. Bis hydrogen phosphite, it's 
harmful by inhalation, ingestion, or skin absorption. The vapor 
or mist can be irritating to the eyes, mucous membranes, and 
upper respiratory tract. It can also cause skin irritation. It 
is not carcinogenic and there are no chronic health hazards. Is 
that an accurate description?
    Dr. Kilpatrick. That is correct.
    Senator Bill Nelson. Do we have testimony that the veterans 
were receiving those kinds of irritations that we just 
described?
    Dr. Kilpatrick. Again, each of those decontaminate agents 
have been listed as having been used in this process of 
evaluating the ability to clean up and continue in a 
warfighting situation.
    Senator Bill Nelson. Calco fluor, may cause mild eye 
irritation.
    Dr. Kilpatrick. That's correct.
    Senator Bill Nelson. Anything more that we need to know 
about that?
    Dr. Kilpatrick. Again, that was used as a tracer agent, and 
there are obviously many of these chemical agents that 
certainly, concentrated, can cause severe problems; in diluted 
concentrations, are not as harmful.
    Senator Bill Nelson. Coxiella burnetii, it causes Q fever 
in humans. How about that?
    Dr. Kilpatrick. That is an agent that was believed to be a 
potential biological warfare agent at the time. The Department 
of Defense had developed a vaccine to protect people against 
that. The test records indicate that people who were exposed to 
this agent had been vaccinated. It's very clear to us that it 
was not an FDA-approved vaccine. It would have been considered 
an investigational vaccine. We don't have any indication in the 
test records that people had signed any sort of informed 
consent, but it was an agent that was used in one of the SHAD 
tests.
    Senator Bill Nelson. Hepatitis or pneumonia could develop 
in the early stages of that. In severe complications, you could 
have damage to the aortic heart valve. Is that correct?
    Dr. Kilpatrick. That is correct.
    Senator Bill Nelson. All right. Diethyl phthalate, it can 
irritate the nose and throat. If it's splashed in the eyes it 
can cause eye pain, but only slight eye damage. Ingestion in 
high concentrations can cause gastrointestinal irritation. What 
else do we need to know about that?
    Dr. Kilpatrick. That, again, is a chemical simulant agent 
that, in concentrations, can cause the symptoms that you've 
described. When we use things like common bleach to clean an 
area, that certainly can also, if ingested or inhaled, can 
cause the same sorts of irritation described.
    Senator Bill Nelson. All right. E. coli--stomach cramps, 
diarrhea, bloody stools, kidney failure, and, in some cases, 
the bacteria can be deadly.
    Dr. Kilpatrick. That's correct. Taking a look at what is in 
the medical literature at the time of that testing, E. coli was 
a very commonly used bacteria as a simulant. The strain that 
was used is not identified in the test report that we've seen. 
There are many other tests using E. coli strain 242 that was 
not shown to be toxigenic to humans. E. coli is one of the most 
common bacteria in the human body--the strains that I think 
we're aware of today, contaminating hamburgers, if you will, 
causing severe illness and death in people. Certainly E. coli 
would not be used today as a simulant.
    Senator Bill Nelson. That was used during these tests?
    Dr. Kilpatrick. During those tests, correct.
    Senator Bill Nelson. As was Pasteurella tularensis that can 
cause ulcerating lesions developing at the site of infection, 
such as the arm, the eye, or the mouth. The regional lymph 
nodes enlarge and then drain. Pneumonia, meningitis, and 
peritonitis may complicate the infection. The mortality rate is 
about 6 percent.
    Dr. Winkenwerder. That would have been a real, live agent, 
both the Q fever and the Pasteurella are neither of those are 
simulants. Those would have been real agents.
    Senator Bill Nelson. They were used.
    Dr. Kilpatrick. Yes, sir.
    Senator Bill Nelson. From what you found out what happened 
back then, when the tests were done with these kind of live 
agents, were the sailors told so that they could put on 
protective gear?
    Dr. Kilpatrick. The test records indicate the sailors were 
vaccinated against those, and we have records showing the Army 
had vaccines against both Q fever and tularemia. As I said on Q 
fever, neither of these were FDA-approved vaccines, 
investigational vaccines. We do not have an FDA-approved 
vaccine for either of those agents today.
    Senator Bill Nelson. To the best of your knowledge, when a 
sailor was the subject of this test, he basically was not 
informed.
    Dr. Kilpatrick. Looking at the records, it says people were 
informed. It doesn't indicate the sailors were informed. 
Talking to sailors, I believe that they were not informed.
    Senator Bill Nelson. Phosphorous 32, doses in excess of ten 
rems--it can be pretty bad, can't it?
    Dr. Kilpatrick. That's correct.
    Senator Bill Nelson. Do we know were any doses in excess of 
that given?
    Dr. Kilpatrick. No, sir. The phosphorous 32 was used in a 
test where a barge that was not habited, there were no sailors 
on board, was towed a kilometer behind a ship. There was a 
device at the prow of that barge to release VX, a persistent 
nerve agent. VX had phosphorous 32 added as a tracer. The 
purpose of the test was then to test a decontamination device 
that was mounted on the barge to decontaminate the barge. So 
when people did go aboard to see if there were remnants of VX, 
they were able to look for radioactive tracers of phosphorous 
32. Those people that did go aboard that barge, after the test, 
were the test conductors. They knew what they were looking for. 
They were appropriately protected against both VX and 
radioactivity.
    Senator Bill Nelson. Sarin nerve agent, it can do the whole 
bit--confusion, drowsiness, coma, and death. To what degree was 
it used?
    Dr. Kilpatrick. It was used in one SHAD test. In this test, 
the sailors were in a citadel that had been specially 
constructed aboard the vessel, an airlock so that they would 
not be exposed. The purpose of this test was to take a look at 
the behavior of sarin on the ship and then to subsequently 
subject the ship to methyl acetate, MAA, which is a simulant 
for sarin, to see if essentially MAA could be used in future 
tests as a simulant and not have sarin potentially expose human 
beings.
    Senator Bill Nelson. Did we have any evidence that we had 
bad----
    Dr. Kilpatrick. Indications are that there were no negative 
outcomes from the people that were on board the ship at that 
time. Again, sarin was the first pass. The second pass was the 
MAA.
    Senator Bill Nelson. Here's one, shorthand, called SM, and 
it can cause infections of the endocardium, blood, wounds, and 
urinary and respiratory tracts.
    Dr. Kilpatrick. Yes, sir. That is a bacteria called 
Serratia marcescens. It was believed to be a harmless agent to 
humans at the time, used extensively in simulant testing for 
bacteria. There were studies done, actually, in San Francisco 
using this as an agent. Following those studies, there were 
some concerns about patients being hospitalized with serious 
infections with this organism. This organism is not used as a 
simulant today.
    Senator Bill Nelson. Staphylococcal enterotoxin, type B, 
cough can persist for up to 4 weeks. You can have chest pain, 
shortness of breath, nausea, vomiting, diarrhea. It's not 
generally thought of as lethal. However, it may incapacitate 
soldiers and sailors for 1 or 2 weeks. Military protective 
masks are effective against the exposure.
    Dr. Kilpatrick. Yes, sir. This is like a powder, a toxin 
that can be inhaled or ingested. It can be used to contaminate 
food. It is an offensive agent. The tests that were done were 
done over a land area and at sea. Clearly, the Marshall Islands 
were involved in part of this testing.
    There are concerns that have been expressed, looking at 
this information and trying to patch with what else is in the 
literature, that the Marshall Islands had two people, one young 
individual, one old individual, who died at about the time of 
this testing. I think that that is something that the Navy and 
the Marshall Islands are still discussing.
    Senator Bill Nelson. A lethal nerve agent, which, of 
course, can go the whole way, to death, was that used?
    Dr. Kilpatrick. VX is one of those very lethal nerve 
agents. Sarin is one of those very lethal nerve agents. Tabun 
is one of those very lethal nerve agents. Soman is one of those 
very lethal nerve agents. In the land-based testing, all of 
those agents were used.
    Senator Bill Nelson. A series of sulphur dioxide, TOF, 
uranine dye, all of those have irritant effects upon eyes, 
skin, respiratory tract, and so forth--those were all used, as 
well.
    Dr. Kilpatrick. Yes, sir. The TOF was used as a simulant 
for VX, a persistent nerve agent, and it was used in evaluating 
marines going ashore in protective gear with the flyover of 
that agent.
    Senator Bill Nelson. Mr. Chairman, I wanted to get this on 
the record, for the obvious reason of what the testimony has 
brought out, that this is serious stuff. As we examine this, 
we're not pointing any fingers of blame; we're asking policy 
questions about how our Government could do these kind of tests 
and, 3 and 4 decades later, we are just now getting around to 
notifying the veterans. They affect the entire country. There's 
a concentration of these folks in my State, where they come to 
live, in retirement.
    I want to leave this panel with this thought, as well, 
that, as you give us continued reports, I want you all to get 
to the bottom of these multiple tests that occurred in Florida, 
whether or not it involved the spore trying to kill the wheat 
crop, or whether it involved many other things, including hog 
cholera, including SM and BG simulants, whether or not it 
included other biological simulants, cereal stem rust spores in 
LX. I want you to get to the bottom of that, and I want you to 
report to us.
    Since some of this stuff is still classified, I want you to 
come and brief the Chairman and me very shortly on this, and 
then we can get to the question of at what point will it go 
through the normal declassification process. But I need to know 
if we've got some kind of health hazard down in the State of 
Florida, where all of these multiple tests were taking place.
    Thank you, Mr. Chairman.
    Senator Cleland. Thank you, Senator Nelson. This panel here 
is not only authorized but directed to get to the bottom of 
this, and we shall continue this investigation until we do.
    Thank you all very much for coming. Thank you for your 
patience.
    We'd now like to call three distinguished Americans. Let me 
say that we thank them for coming across the country to take 
part in this important hearing. Their presence here today shows 
that these men are still willing to serve their country. We 
thank them for their testimony, and we welcome you to this 
effort.
    I can't tell you how much we appreciate your being willing 
to come and share your stories with us. We'd like for you to 
tell us a little bit about when you served, the name of your 
ship, where you served, and what your own personal story is in 
relationship to the SHAD projects.
    We'd like to begin with Lieutenant Commander Jack Alderson, 
United States Navy, Retired. Commander Alderson, please tell us 
a little bit about yourself, your years of service, where you 
served, and the ship that you served on.

      STATEMENT OF LT. CDR. JACK B. ALDERSON, USN, RETIRED

    Commander Alderson. Thank you, Mr. Chairman.
    My name is Jack Alderson. I live in Eureka, California. I 
am a retired Navy lieutenant commander. I was on Active duty 
from 1956 until 1970. I then went in the Navy Reserves and 
stayed in the Reserves until 1977, when I retired from the 
Reserves. I am here today to describe my experiences with the 
Project SHAD technical staff.
    In 1964, I was Active duty in the United States Navy, and I 
was ordered to Project SHAD technical staff on board the U.S.S. 
Granville S. Hall in Pearl Harbor, Hawaii. I was ordered there 
as officer in charge of a division of five Army light tugs 
(LTs). The purpose of these tugs was to test, at sea, 
biological weapons. As I recall, the test names included 
Operation Shady Grove, Fearless Johnny, Big Tom, and there were 
others.
    Senators, there are two pictures of the tugs in front of 
you. One is the 2085, and the other is the 2080.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    I had five tugs under my command. They were Army tugs with 
Navy crews with an officer, a lieutenant in the United States 
Navy, as the skipper. Four of the ships were the same 
configuration. The 2080 was a little different. She was 
outfitted as a disseminator and, of course, with sailor humor, 
gallows humor, we named her Pepe Le Pew. [Laughter.]
    Each LT, as I said, was manned by a Navy crew. I herein 
stress that during the test, every safety precaution within the 
knowledge and technologies we were acquainted with at the time 
was taken. Remember, though, I'm a sailor, and I wasn't a 
medical technician of any kind.
    Some time ago, I became aware that some of the Project SHAD 
personnel were having health problems, namely respiratory and 
cancer. In communication with a knowledgeable medical person 
involved with Project SHAD, he informed me that some of the 
materials used to decontaminate or decon, with after the tests 
are now known as deleterious to human health. Concern is also 
voiced that some of the inoculations given to SHADers may 
contribute to adverse health conditions later in our lives.
    The security classification under which we worked precluded 
any of this from being placed in our health records. In fact, 
some of our health records are missing.
    The concerns that we have are that all the people who 
worked for me and with full trust in the United States Navy may 
not know that they have a problem and/or that the problem 
relates to what they did with Project SHAD in the mid-1960s. 
Most importantly, their present attending physicians would not 
know what to look for or what to expect.
    With these concerns, letters were written, without getting 
any meaningful answer. In fact, I and others were told that--
through our elected representatives, that we were part of 
Autumn Gold. However, later, when I received a copy of the 
final report of Autumn Gold, it was dated May 1964. I did not 
report to Project SHAD until October 1964.
    The Army kept saying that they had concerns during this 
period of time, but they certainly gave none of us any 
satisfaction. During this period, I found out that I had a 
malignant melanoma. I did not believe and do not believe that 
this had any connection with the testing carried out by Project 
SHAD, but it brought home to me what I had heard about others. 
Since then, I've been diagnosed with the loss of some of my 
lung capability, and I am presently undergoing treatment for 
prostate cancer.
    In one letter, the Army states that cooperation will be 
given to personnel involved in chemical and nuclear testing, 
not biologicals. In fact, a letter from Major General J.M. 
Cosumano, Assistant Deputy Chief of Staff for the Army, dated 
August 23, 2000, states that everything remains classified, 
that only simulants were used, and protective clothing worn. 
Untrue.
    On 13 September 2001, fact sheets were released by DOD. One 
of these was for Operation Shady Grove, in which my LTs were 
involved. When most of us arrived at Pearl Harbor in October 
1964, we manned the LTs and commenced training and 
inoculations. We were considered ready for operations before 
the holidays and were told to be prepared to get underway right 
after the New Year. We were ready on 2 January 1965. However, 
we were delayed until President Lyndon Baines Johnson signed 
the authorization for the tests. He signed it on 21 January 
1965. We were underway on 22 January 1965, proceeding to 
Johnston Island for Operation Shady Grove, the testing of 
biological weapons.
    The fact sheets omit that these toxic agents were used, Q 
fever and Tularemia. There were others. Decontamination agents 
are not identified in the fact sheet, and they also state that 
protective clothing ``should'' have been worn. I was not aware 
of any protective clothing, except gas masks, for the use of 
the outside decon crew. Other bio agents tested were omitted, 
also.
    During Shady Grove and prior to getting underway from 
Johnston Island, the LTs were thoroughly briefed on what they 
were going to do. In other words, we prescripted the operations 
at sea because we were on electronic silence. At twilight, the 
test subjects were placed in cages topside, and the crew went 
into the citadel. A pair of Marine A-4s would come over, one 
spreading the toxic agent, the other would spread the trace 
elements. The LTs were lying on a grid. Sometimes the grid was 
as much as 100 miles long. At morning light, the three-man 
exterior decon crew would exit, take down the test subjects and 
place them in the doghouse, take down the samplers and the 
other material that was used to collect samples of the clouds, 
and take those to the doghouse. Then they would commence the 
exterior decontamination of the ship. Then the tug would 
proceed to the Granny and trade test subjects, passing the 
exposed test subjects onto the Granny for lab tests, and 
picking up a new set of subjects for the following day--or that 
evening.
    Six days at a time was what was imposed on the LTs' at-sea 
operations for safety purposes, in other words, crew fatigue, 
because we were a crew of 10 operating around the clock. After 
a series of tests, we would move the tugs to Area Three on 
Johnston Island, a downwind position, and thoroughly decon the 
interior.
    The decon agents are my chief worry on what is happening to 
the crews of the LTs. I understand security classification and 
the sensitivity of the operation in which we were engaged. I am 
also proud of the job that the LT division did, the 
professionalism and the patriotism.
    Senator Nelson, I want to give you an idea of the quality 
of the crews, because one of your constituents, Tom Gwise, who 
lives in Merritt Island, was my senior electronic technician on 
the LTs. When he left the LTs, he was promoted to warrant 
officer. When he got out of the Navy and retired, he went ahead 
and got a Ph.D. in education. This was the quality of the 
people. One of my tug skippers became a senior vice president 
of Litton Industries. So it was a good crew.
    I'd like to point out that they have also maintained their 
silence, in accordance with the departure debriefing. However, 
I was the LT division Officer in Charge and have a 
responsibility to those crews, as does the Navy and 
participating services in this country.
    On behalf of all the SHADers, I would like to pay special 
acknowledgment and appreciation to you, Mr. Chairman, and to 
you, Senator Nelson, and to my Congressman, Mike Thompson, for 
introducing the Veterans Right to Know Act of 2002.
    In conclusion, I have some recommendations. I respectfully 
request for the declassification and full disclosure as to 
weapons, simulants tested, decontamination agents, and 
inoculations utilized with trace elements identified along with 
the protocols, units, locations, and dates. Then a board of 
toxicologists and medical people should be supported by a 
medical service corps officer from Project SHAD--and I 
certainly recommend Commander Norman LaChappelle, whose present 
position is health officer of Memphis and Shelby Counties, 
Tennessee. He is also the State of Tennessee's bioterrorism 
coordinator--and myself as the LT division commander; I am 
familiar with the operations. I would also recommend that a 
representative of each one of the units that was also in the 
112 tests who is familiar with the operations of their unit 
during the testing be part of this. I recommend that the board 
evaluate the information as to what symptoms and conditions 
might appear, then get that information to the Veterans 
Administration doctors for what to look for in the physicals. 
This, along with a realistic campaign to locate the service 
personnel and/or what might have caused their demise.
    I say this, on a realistic campaign because of the fact 
that the classification of Project SHAD, I can tell you that my 
crew members still will not talk.
    Thank you. I would be pleased to answer any of your 
questions.
    [The prepared statement of Lieutenant Commander Alderson 
follows:]
           Prepared Statement by Jack B. Alderson, USN (Ret.)
    Thank you, Mr. Chairman. My name is Jack Alderson. I live in 
Eureka, California. I am a retired Lieutenant Commander in the Navy 
Reserves. I served in the Navy from 1956 to 1970 on active duty and 
until 1977 in the Reserves. I am here today to describe my experiences 
with the ``Project SHAD Technical Staff.''
    In 1964 I was on active duty in the U.S. Navy and was ordered to 
the ``Project SHAD Technical Staff,'' as Officer in Charge of a 
Division of five Army Light Tugs (LTs) at Pearl Harbor. The purpose of 
these LTs were to test, at sea, biological weapons. As I recall the 
tests names included Operation Shady Grove, Fearless Johnny, Big Tom, 
and others.
    Each LT was manned by a Navy crew, with a Navy Lieutenant as OinC. 
These were Army vessels, with Navy crews, operating under a joint 
command. These were not volunteers, but hand-picked Navy personnel, 
with Final Secret clearance, ordered in to do a job. The job was done 
and done well. During the 3 years I was with the LTs they never missed 
a commitment, completed all tasks assigned and executed same with a 
fine safety record. This was at times a very dangerous job, and had 
very stringent safety precautions and procedures in place.
    I herein stress that we took every safety precaution within the 
knowledge and technologies we were acquainted with in the 1960s. 
Sometime ago I became aware that some of the Project SHAD personnel 
were having health problems, namely, respiratory and cancer. In 
communication with a knowledgeable medical person connected with the 
tests, he stated, ``that some of the materials used to clean up with 
(decon) after the tests were now known to be deleterious to human 
health.'' Concern is also voiced that some of the inoculations given 
the SHADers may have adverse health conditions later in our lives. The 
security classification under which we worked precluded any of this 
from being placed in our official health records. In fact some of our 
health records are missing.
    The concerns that we have are that the people who worked for me, 
with full trust in the U.S. Navy, may not know that they have a 
problem, and/or that the problem relates to what they did with Project 
SHAD in the mid 1960s. Most importantly, their present attending 
physicians would not know what to look for or expect. With these 
concerns letters were written without getting any meaningful answers. 
In fact I and others were told through our elected Representatives that 
I was part of Autumn Gold, not SHAD. However, when I received a copy of 
the Autumn Gold final report it was dated May 1964, 5 months before I 
reported in to Project SHAD. In fact, I and others were told that no 
such testing occurred. The Army kept saying that they had concerns, but 
gave no satisfaction. My guess is that the DOD did not want to admit to 
the full SHAD and 112 operations.
    During this period, I found out that I had a malignant melanoma. I 
did not believe that this had any connection to the testing carried out 
by project SHAD, but it brought home to me concerning what I had heard 
from others. (Since then I have been diagnosed with loss of some lung 
capability, and am presently undergoing treatment for prostate cancer.) 
In one letter, the Army states that cooperation will be given to 
personnel involved with chemical or nuclear testing. Not biologicals. 
In fact, a letter from Maj. Gen. J.M. Cosumano, Assistant Deputy Chief 
of Staff for the Army, dated August 23, 2000, states that everything 
remains classified but that only simulants were used, and protective 
clothing worn. UNTRUE.
    On 13 Sept. 2001, Fact Sheets were released by DOD, one of which 
was for operation ``Shady Grove,'' of which my LTs were involved. When 
most of us arrived at Pearl Harbor in October 1964, we manned the LTs 
and commenced training and inoculations. We were considered ready for 
operations before the holidays and were told to be prepared to get 
underway right after the first of the year. We were ready on 2 January 
1965, however, we were delayed until President L.B. Johnson signed the 
authorization on January 21, 1965. We were underway on the 22, 
proceeding to Johnston Island for the execution of ``Operation Shady 
Grove.'' The testing of biological weapons, not simulants. The Fact 
Sheets admit that these toxic agents will cause Q fever and Tularemia.
    Decontamination agents are not identified and they also state that 
protective clothing should have been worn. I was not aware of any 
protective clothing except gas masks for the outside decon crew. Other 
bio-agents tested were omitted.
    During Shady Grove and prior to getting underway from Johnston 
Island the LTs were briefed as to the next 6 days operation as radio 
silence was imposed. The LTs would pick up the test subjects from the 
U.S.S. Granville S. Hall (``Granny'') and proceed to their assigned 
position on the grid. At twilight the test subjects were placed in 
cages top side and the ship buttoned up. The Marine A-4s would 
disseminate the agent and trace elements. The LTs were lying to on the 
grid and after the cloud had passed by and at morning light the three 
man exterior decon crew would exit, take down the test subjects, 
samplers and such, decon the exterior of the tug. Then proceed to the 
Granny and trade test subjects and do it all over again. Six days at a 
time was what was imposed on the LTs at sea operations for safety 
purposes i.e., crew fatigue. After a series of tests we would move the 
tugs to area three on Johnston Island, a down wind location, and 
thoroughly decon the interior. The decon agents are my chief worry.
    I understand security classifications and the sensitivity of the 
operations in which we were engaged. I am also proud of the job that 
the LT division did, the professionalism and patriotism shown by the 
LTs and their crews. Senator Nelson, to give you an idea of the quality 
of the crews, Tom Gwise from Merritt Island, Florida was the senior 
electronic technician with LTs, as he left the LTs he was promoted to 
warrant officer and upon retirement, earned a Ph.D. in education. Here, 
I would like to point out that they have also maintained their silence 
in accordance with the departure debriefing. However, I, as LT Div. 
OinC, have a responsibility to those crews, as does the Navy, all 
participating services and this country.
    On behalf of all SHADers, I would like to pay special 
acknowledgement and appreciation to Senators Cleland and Nelson and 
Congressman Thompson for introducing the ``Veterans Right to Know Act'' 
of 2002.
    In conclusion, Mr. Chairman, I have some recommendations:
    I respectfully request for the declassification and full disclosure 
as to weapons and simulants tested, decontamination agents and 
inoculations utilized with trace elements identified, along with 
protocols, units, locations, and dates. Then a board of toxicologists, 
medical people along with a SHAD medical service corps officer, I 
recommend Cdr. Norman LaChappelle who is presently the health officer 
for Memphis and Shelby Counties TN, and the states bio-terrorism 
coordinator. Myself from the LT Division as I am familiar with the 
operations and a representative of the other units involved that are 
familiar with the operation of their units during testing. That the 
board evaluate the information as to what symptoms and conditions might 
appear then getting that info to the Veterans Administration doctors 
for what to look for in the physicals. This along with a realistic 
campaign to locate the service personnel and/or what might have caused 
their demise.
    Thank you for the opportunity to speak. I would be pleased to 
answer your questions.

    Senator Cleland. A real quick question, Commander. You 
mentioned ``subjects that were tested,'' and then, ``down into 
the doghouse.'' The subjects that were tested were humans or 
dogs or what?
    Commander Alderson. No, sir. The test subjects were Rhesus 
monkeys, they would be in cages, and anywhere from three to six 
would be hung around the ship. A seasick monkey is not a 
pleasant thing to deal with, but they would be hung around the 
ship. The crew would go down inside, seal up the ship. At the 
morning twilight, and after the cloud had passed the tugs, then 
three sailors would go topside, pick up the Rhesus monkeys, 
take then down, and place them in the doghouse. They would pick 
up the samplers, the petri dishes, and so forth, and take those 
down to the doghouse, seal that up. They would then decon the 
exterior of the tug, and the tug would get underway, go 
alongside the Granville S. Hall. We would take our samples and 
our test subjects, pass them to the Granville S. Hall, and get 
new subject and equipment for the next day, proceed back to the 
grid to the next assigned position.
    Senator Cleland. Thank you.
    Mr. Robert Bates, please tell us a little about yourself, 
your years of service, where you served, and the ship that you 
were on.

                  STATEMENT OF ROBERT W. BATES

    Mr. Bates. Mr. Chairman, I graduated from high school in 
Klamath Falls, Oregon, and enlisted in the U.S. Navy on June 
16, 1961. I went through boot camp and Electrician's Mate 
School in San Diego, California, and came out of school as an 
electrician's mate fireman apprentice on January 26, 1962. I 
then attended MPO school in San Diego and left to catch my 
ship, which had already departed for a West Pacific cruise.
    I reported aboard the U.S.S. Navarro APA 215 on February 
15, 1962, at White Beach in Okinawa. While on board the 
Navarro, I worked as electrician on both the ship's electrical 
systems and our landing craft's electrical systems. I stood all 
of my watches in the engine room where our generators and 
electrical switchboards were located.
    After I was promoted to electrician mate third class on May 
16, 1963, I was placed in charge of our 24 landing craft, where 
I rode the boats on amphibious landings to ensure that they 
were properly functioning.
    During the first part of 1963, my ship spent a lot of time 
in and around Hawaii. Prior to going there, we heard, through 
rumors, that it was for amphibious operations. We then heard 
that the rumors had changed, that this had been cancelled due 
to high surf, but we were going anyway for rest and relaxation.
    While we were in Hawaii, we were told that we would be in 
some exercises called Operation Autumn Gold, which was just 
some sort of ship's exercise. I didn't think anything about 
this, as we participated in exercises on a regular basis. We 
were never advised exactly what was going on in this operation 
or asked to give our consent to participate in a biological or 
chemical test.
    Over a period of about 2 months, the ship went out 
overnight on many occasions to participate in Operation Autumn 
Gold. The command history for 1963, which is written by the 
captain, shows that the ship received a grade of 92.92 percent 
for Autumn Gold. I don't believe that this score had any 
relation to the crew's performance whatsoever, but, instead, to 
the delivery of a biological system. I believe this score was 
part of a comprehensive effort to cover up the true meaning of 
the operation.
    On October 23, 2001, the office of the Under Secretary of 
Defense sent me a letter stating that I was on the ship 8 of 9 
times that participated in the Autumn Gold exercises, but the 
letter didn't say anything about any other tests.
    I did not hear of Eager Belle II until about 3 months ago 
when the VA, through their SHAD help line, advised me that I 
had also been in this test in early 1963. My medical records 
also show I was diagnosed with pneumonia on March 11, 1963, and 
admitted to sick bay on my ship to recover. The VA advised me 
that this was about halfway through the SHAD tests.
    While at sea during the Autumn Gold or Eager Belle II 
exercises, I went to the ship's mess deck to get some coffee 
while on watch. Near the mess deck, I came across a person 
wearing a full chemical/biological suit operating some kind of 
a machine that I had never seen before. I asked what he was 
doing and other such questions, but I did not receive any kind 
of a reply from him. He didn't even acknowledge that I was 
there. I thought at the time that this was very strange, 
because I had never seen anybody aboard my ship ever wear 
anything like this, and this person wouldn't even talk to me. 
The ship's crew was not issued any protective clothing, and I'm 
not even sure that the ship carried any for us to use in case 
we ever did need it.
    The engine room on my ship was extremely hot, as there were 
two oil-fired boilers where I stood my watches. I had to stand 
under large air blowers that were almost always on to beat the 
heat. Without the air blowers, the temperature in the engine 
rooms would have been too high for most people to bear. These 
blowers blew outside unfiltered air into the engine room to 
help keep the temperature down to a liveable level. These air 
blowers would also have forced large quantities of the 
Bacillus-laced mist into the engine room. The air from these 
blowers was so strong that you could not smoke under them, as 
your pipe or cigarette would burn out immediately.
    I stayed on the ship until I was discharged from Active 
duty on July 31, 1964, while in Oakland, California. I 
continued on in Active Reserve until June 15, 1967, when my 6-
year obligation was completed and I received my honorable 
discharge. I joined the Navy Reserve again in 1987 and received 
my second honorable discharge in 1990.
    I had always been bothered by the fact that I didn't know 
what was used on me during Autumn Gold, so in 1980 I filed a VA 
disability claim. I had trouble breathing, which I thought 
might be attributed to Autumn Gold, and I had already had one 
surgery in 1968 or 1969 for torn cartilage on my right knee.
    I was checked at the VA Hospital in Spokane, Washington. 
The doctors there told me that I had a 20 percent diminished 
lung capacity and I needed additional surgery for torn 
cartilage in my right knee.
    The main reason I filed this claim was to find out more 
about Autumn Gold, but it didn't work. The VA denied my claim, 
saying that Autumn Gold never took place and that the problem 
with my knees was not caused by anything I did while in the 
Navy.
    It appeared to me at this time that the VA makes its 
decisions in a purely arbitrary manner. I didn't appeal this 
claim, as I didn't have any way at the time to prove that 
Autumn Gold did take place or exactly when the cartilage in my 
knee first started tearing or when exactly I lost 20 percent of 
my lung capacity.
    I let this matter go until I contacted former Congresswoman 
Jolene Unsoeld in 1993. She was very helpful in obtaining 
copies of my service and medical records as well as a 1963 
command history report and other information, but nothing that 
spelled out what Autumn Gold was all about.
    I did find that the 1963 command history report mentioned 
Autumn Gold by name. I thought at the time that if I could find 
some official document that showed that Operation Autumn Gold 
did, in fact, take place, why couldn't the VA? Even though this 
document did not spell out what took place, it did prove that 
it, in fact, happened.
    Congresswoman Unsoeld was unsuccessful in obtaining any 
detailed information on Autumn Gold, so around 1994/1995, my 
brother-in-law, Josh West, contacted an investigative reporter 
named Eric Longabardi in New York and gave him a brief 
description of what I thought had happened during Autumn Gold. 
Not too long after, Mr. Longabardi called me, and I gave a more 
detailed description of what I remembered about Autumn Gold. I 
guess this got his interest, as he started to investigate for 
additional information.
    In November 1998, Mr. Longabardi came to my home in 
Vancouver, Washington, to tape a television interview. During 
the interview, he showed me a VHS copy of a recently 
declassified film. The film showed my ship during Autumn Gold, 
as well as how they distributed Bacillus in front of my ship. 
The tape also showed a person wearing a full chemical and 
biological suit operating a piece of equipment that looked like 
the one I remembered being on my ship during Autumn Gold. The 
tape went on to show another operation called Copperhead.
    Mr. Longabardi then interviewed other people who were on 
the ships that participated in the SHAD tests and produced the 
stories that aired in two segments on CBS Evening News on May 
15 and 16, 2000, with a follow-up piece a short time later. I 
asked Mr. Longabardi to send me a VHS copy of this tape, which 
he did, and I have it with me.
    On September 28, 1998, I was hospitalized in Vancouver, 
Washington, with congestive heart failure and atrial 
fibrillation. Several times the doctors tried to get my heart 
back into a normal rhythm. They tried chemically to stop and 
restart my heart, and twice they used a defibrillator to stop 
and restart my heart over the course of 3 years, but all their 
efforts failed.
    I continued working for 2 more years, but I noticed that I 
tired more easily every day. So, in October 2000, my doctor and 
I decided I could no longer work, and I retired on a 
disability. I now receive disability pensions from my union and 
Social Security.
    On October 8, 2000, I reopened my VA claim, as I was more 
convinced than ever that the agents used in Autumn Gold were 
responsible for my heart condition. I also had more surgery 
done on my right knee, and I have arthritis in both knees now. 
I have also had to wear hearing aids due to what I believe is 
long exposure to extremely loud engine room noises where I 
stood my watches without benefit of hearing protection.
    I listed participation in Autumn Gold on my claim form and 
that I believed this was the cause of my heart problems. I used 
the VA web site to file this claim online, but it did not print 
any of the information I put on the form. I have asked the VA 
on two different occasions for a copy of the completed form for 
my records. The VA did not respond to my request either time.
    On October 12, 2001, the VA sent me a letter saying that 
they would allow 10 percent service-connected disability for 
the ringing in my ears, but they rated my hearing loss at 0-
percent disability. The VA also deferred any decision on my 
heart condition, pending a review by the central office.
    On August 15, 2002, I received another letter from the VA 
advising me that my claim for health problems caused by Autumn 
Gold was denied. They said in their letter that exposure to, 
quote, ``BG, zinc cadmium sulfide, and chemical agents GB and 
VX'' during the SHAD tests probably did not cause any of my 
health problems, even though such exposure could have resulted 
in the pneumonia I came down with on March 11, 1963.
    It doesn't appear that the VA investigated my claims as 
thoroughly as they should have. They didn't even get their 
facts straight, as they made no mention of Eager Belle II or 
any of the decontaminates that were used. This information was 
brought to my attention by the VA SHAD help line on the 
Internet prior to receiving this letter. I understand that I 
was exposed to these agents even more in Eager Belle II than I 
was in Autumn Gold, as this test lasted longer.
    Mr. B.L. Flint, service center manager at the Seattle, 
Washington regional office for the VA, should have been aware 
that I was involved in at least one other test, and he failed 
to mention it. I understand that there are a lot more of these 
tests that are still classified. It is even possible that I was 
involved in more than the two tests that I know about.
    On August 15, 2002, 3 days after receiving this letter from 
Mr. Flint, I received a letter from Daniel L. Cooper, the Under 
Secretary of Veterans Affairs for Benefits in Washington, DC. 
He advised me that the VA is still investigating the long-term 
health effects of exposure to biological and chemical agents 
used in the SHAD tests. This makes me wonder. How can the VA 
make any determination on my case, or any other, if they don't 
know what the long-term health effects are?
    During the past 2 months, I have contacted the VA in 
Seattle, Washington and asked for copies of my 1980 claim form 
and their letter of disposition. These requests have gone 
unanswered. I sent a release form to them to release this 
information to Mr. Longabardi, and he received the requested 
documents within 1 week.
    The VA has not acknowledged any request for information 
that I have sent to them since I've filed this disability 
claim. They have not even acknowledged the Notice of Appeal 
letter that I sent to them. I am also told that 28 people have 
filed SHAD-related claims, and that mine is the only one to 
have been completed and denied.
    I am now getting my health care at the VA Clinic in 
Vancouver, Washington, and the VA Hospital in Portland, Oregon, 
because of my 10 percent service-related disability for the 
ringing in my ears. The doctors there are still trying to 
determine why I'm so short of breath. They don't believe that 
my congestive heart failure is responsible for it all, but they 
haven't found out what is causing it.
    The VA has never contacted me about being checked out for 
problems associated with the SHAD tests. On my disability 
claim, they only had the doctor examine me for problems that I 
knew about and had provided them with the information on my 
claim form.
    The VA doctors are still trying to find the answers, only 
because they are my health care provider, and the doctors have 
not mentioned any directive they have received regarding any 
veterans involved in the SHAD tests.
    Those other veterans who are having problems associated 
with SHAD may not be so fortunate. Those veterans may be having 
serious problems with undiagnosed illnesses, and the VA will 
not look for them until the veteran can tell the VA 
specifically what is wrong.
    Since 1963, when these SHAD tests were conducted and I 
became suspicious of what was happening, the U.S. Government 
has denied and lied to me about what took place. I have not 
been told the truth by any governmental agency about what 
actually took place. The DOD's so-called fact sheet says we 
were not test subjects, but test conductors. They also say that 
test conductors wore protective clothing, but the ship's crew 
didn't have any protective clothing. Some of the ship's company 
was subjected to throat and nasal swabs after the tests.
    The DOD also says that we were fully informed and given 
extra chemical and biological training. We were not informed as 
to the true nature of the exercise or given any extra training.
    If the DOD's fact sheet is correct, and all these tests 
were supposed to have been conducted as they are spelled in the 
fact sheet, then somebody needs to be prosecuted for gross 
misconduct, as these things never happened, and none of the 
tests on my ship were conducted by those procedures.
    As children, we are taught by our parents to be responsible 
for our actions, but it seems that this lesson is lost when a 
person becomes a Government official or a high-ranking military 
officer. They change from being responsible to lying and 
coverup.
    I can see the need for security if the issue is classified 
due to a need to protect our country, but the DOD, Army, Navy, 
VA, et cetera, have carried it to the extreme so as not to take 
the blame for a gross mistake in using our sailors as guinea 
pigs in their chemical and biological tests.
    The sad thing is, I and probably all of my shipmates would 
have volunteered to undergo these tests if we had been informed 
as to their nature and importance and given assurance that they 
would follow up with medical checks and health care, if needed, 
for any medical problems that might have arisen from the tests.
    It's this kind of action that makes a lot of people 
distrust the Government. Our service men and women need to know 
that the Government and VA are there to aid them when needed 
and not to lie to them. I am surprised that our volunteer 
military has been able to obtain such quality people since the 
draft was eliminated; however, this can't go on forever unless 
our Government stops lying and becomes more truthful and 
helpful to our military men and women.
    Thank you.
    Senator Cleland. Thank you, Mr. Bates. That's a powerful 
testimony. Thank you for being here.
    I would like to ask Mr. George Brocklebank to please tell 
us a little about yourself, your years of service, where you 
served, and the ship that you were on.

               STATEMENT OF GEORGE J. BROCKLEBANK

    Mr. Brocklebank. Thank you, Mr. Chairman.
    My name is George James Brocklebank, and I live in Palm 
Beach Gardens, Florida. I attended Great Lakes Boot Camp and 
then went to Radio A School in Bainbridge, Maryland. Upon 
graduating, I was assigned to the U.S.S. Power DD-839, 
homeported in Mayport, Florida.
    I attained the rate of second-class radioman and became the 
leading radioman when I was discharged from the Navy. I served 
a little over 4 years in the Navy and on board the Power from 
August 1963 to October 1966.
    I remember well our deployment to Argentia, Newfoundland, 
in the winter of 1965. I could not understand sending a ship 
from Florida to the North Atlantic. We were never told why we 
were going up there. We knew nothing about Copperhead tests or 
the word ``SHAD'' at that time.
    One of the quartermasters said he was told it was something 
to do with studying wind conditions in cold weather. Myself, 
being in the radio room, had access to pertinent information 
and still had no idea why we were sent there.
    I can remember monitoring stations being set up in certain 
areas of the ship and civilian personnel wearing special suits. 
We were never briefed about this experiment. We were never 
issued any protective clothing, and we did not give consent to 
be sprayed with a bacteria, zinc cadmium sulfide, or to be 
exposed to the decontaminate agents used to clean the ship.
    The civilian people would come and go, and, after some of 
the days at sea, would take throat and gargle samples. This had 
the crew really wondering what was going on, and we would ask 
questions and were told to go about our business.
    I never thought much about the Argentia, Newfoundland, 
deployment until I was contacted by Eric Longabardi, a TV 
investigative journalist from Los Angeles, about 4 years ago. 
He contacted me in late 1998 and came to my home in Florida in 
February 1999 to interview me for a report on television. He 
also showed me a film about Copperhead, after which I was 
rather disgusted and felt betrayed by the Navy for letting this 
happen without my knowledge or consent.
    He later produced some reports that were aired on CBS 
Evening News in 2000. At that time, I and many of my shipmates 
learned what had really happened in these tests in Argentia. 
This was information that I had never been told about by the 
Government, ever. After the reports were on TV, we all felt 
betrayed by our Government.
    I have attended six reunions of my ship, the U.S.S. Power, 
in the past 6 years and have had contact with many of my 
shipmates over the years. Many of them have problems now and 
have in the past. My wife had three miscarriages in our first 3 
years of marriage, and the doctors were at a loss to know why. 
Other shipmates had similar problems, like mine, after getting 
married and after discharge from the service. I also have 
circulatory problems in my legs.
    No one from the Government has ever contacted me about 
participating in the test called Copperhead for almost 40 
years. I guess they just wanted to wait until we were all dead, 
and then the problem would disappear and no explanation would 
be needed.
    I know some of my shipmates would be in better health if 
their doctors knew what they had been exposed to in earlier 
years. Some of them might even be alive today.
    I have a new VA hospital 5 miles from me in Riviera Beach, 
Florida. I signed up for care and was turned down for budget 
deficits and means policies. I was told, when I signed up the 
Navy, health care would be a benefit for me, which turned out 
not to be true. Now, with my Senator's help, Bill Nelson from 
Florida, I am going to have access to the new facility near me.
    I know of one shipmate who sent for his medical records, 
and he was told that the year 1965 was missing. This seems 
strange to me. The Defense Department says we were test 
conductors, but when you take throat swabs and saliva samples 
from sailors, that makes you a test subject.
    I think it is time for the military and our Government to 
stop stonewalling and release the truth about these tests and 
help the many sailors with their medical problems. When 
enlisting in the Navy, you are told you will be eligible for 
health care at VA facilities, but you are not told how 
difficult it is to obtain such care.
    I just hope these hearings bring out the truth, and all of 
us who were betrayed can be taken care of and live out our 
golden years peacefully.
    Thank you.
    Senator Cleland. Thank you very much, Mr. Brocklebank.
    You all present to us incredible stories. You add 
tremendous insight into what we're about here, and that is 
getting the full story and pulling back the curtain on this sad 
chapter in American history where we used biological and 
chemical weapons against our own people and didn't tell them 
about it.
    Senator Nelson, do you have further comments?
    Senator Bill Nelson. Mr. Chairman, I just want to thank you 
again. You, of all people, have the sensitivity to grasp this 
idea that I suggested to you that this was worthwhile, to 
determine what is proper governmental policy. I think the 
testimony of these three gentlemen speaks for itself.
    This is inexcusable. It's not only ironic, as you say, what 
we're dealing with, with regard to Iraq; it's inexcusable. It's 
unconscionable.
    I have a few specific questions, if I may, but I'm in no 
rush.
    Senator Cleland. Go ahead.
    Senator Bill Nelson. I want to thank you, by the way. You 
have cosponsored this legislation with me, and this is just 
another vehicle which we're going to use to get to the bottom 
of this, and I thank you very much, Mr. Chairman.
    I know Mr. Brocklebank was in Copperhead. Mr. Bates, you 
said that there were two.
    Mr. Bates. There were two, sir. Yes, sir.
    Senator Bill Nelson. Which were your two?
    Mr. Bates. Autumn Gold was the one I had heard about when I 
was in the Navy--heard of the name, anyway.
    Senator Bill Nelson. Autumn Gold.
    Mr. Bates. Autumn Gold. About 2 or 3 months ago, the SHAD 
help line tells me I was in Eager Belle II, also during 1963.
    Senator Bill Nelson. Okay.
    Mr. Bates. I had never heard that name until a couple of 
months ago.
    Senator Bill Nelson. Oh, I see.
    Mr. Alderson, which one were you in?
    Commander Alderson. I was in Operation Shady Grove, Big 
Tom, Fearless Johnny, probably two or three others. Shady Grove 
was the important one. No, that was the one that tested the 
real biological weapons. The others were testing simulants. We 
used BG, SM, and E. coli. We used British E. coli as the 
simulants, in some cases, there. We used several other things 
as trace elements.
    In this latest disclosure, I saw other names of tests. I 
was there for 3 years, and not only was I involved in some of 
the testing, but I was also involved in some of the planning 
for future tests, and I have a little difficulty, this many 
years later, on some of these that are just being disclosed.
    But Shady Grove is the first one and the most important 
one, I think, that I was involved with.
    Senator Bill Nelson. The reason I ask is because at one 
point I thought that one of you--perhaps Mr. Bates--was 
thinking that he was only involved in Autumn Gold. I was 
curious about that, Mr. Chairman, because, in Autumn Gold, what 
has been released as a fact sheet by the Under Secretary of 
Defense is that they only used Bacillus globigii--BG, in other 
words--and it says it has characteristics similar to those of 
anthrax in particle size and dispersal, but it's the one that 
household bleach and water solution can kill.
    I was hearing the symptoms coming from you, Mr. Bates, that 
involved so many of these other tests, such as the 
decontamination chemical that now there is evidence that it is 
a carcinogen. That was in Copperhead and in Shady Grove. 
Coxiella burnetii, OU, symptoms include fever, headache, muscle 
pains, joint pain, hepatitis, or pneumonia--I heard pneumonia 
coming out of this--may also develop during the early stages. 
Then UL--Pasteurella tularensis: pneumonia, meningitis, 
peritonitis may complicate the infection whose mortality rate 
is about 6 percent.
    So there was some lethal stuff, there was some bad stuff 
that was being used. Of course, that was what we were trying to 
do, apparently, to determine, how you could defend against 
these. They were clearly showing the toxicity using these 
monkeys. Where you all were kept below deck while the monkeys 
were exposed--and I take it that the monkeys were dead.
    Commander Alderson. No, sir.
    Senator Bill Nelson. They were not dead?
    Commander Alderson. No. When we transferred the monkeys, 
they were still in the live condition. They went aboard the 
Granville S. Hall, went down into a lab. They were isolated in 
the laboratory. The scientific types--I didn't spend much time 
in the lab--watched the reactions of the monkeys for a period 
of time, then they were euthanized, given autopsies and put in 
an autoclave, ground up, and put in the ocean.
    Senator Bill Nelson. Along with your testimony, we have 
pictures of the ships.
    Commander Alderson. I had five Army light tugs under my 
command. Those are the five. The color photograph, as I said, 
is the 2080. She also had disseminating capability, and the 
other four just acted as receipt.
    Senator Bill Nelson. Were you resident on one of those five 
ships?
    Commander Alderson. No, sir, I was not.
    Senator Bill Nelson. You were in a command ship?
    Commander Alderson. I was on Johnston Island on the radio 
in immediate communications if there was ever a problem. 
Because of the importance of the tests, we operated five tugs 
with six crews. I was the sixth skipper and the senior skipper, 
and I was prepared at the time, if one of the other skippers 
got sick, to go aboard his ship and take command immediately 
and continue the operation.
    Senator Bill Nelson. What was the port that you were out of 
on those?
    Commander Alderson. Pearl Harbor was where we operated out 
of, but for the Shady Grove, we operated out of Johnston 
Island.
    Senator Bill Nelson. What were your thoughts at the time 
about your assigned duty as a commanding officer of these 
ships? What did you think about at the time of these tests?
    Commander Alderson. At the time, we were very carefully 
explained what we were going to be doing. All of our people 
knew what they were doing. One of the things that was explained 
to us is that the Russians did have chemical and biological 
capabilities, and that if we were going to continue to have 
detente, we must have the same capabilities as the Russians. We 
already had detente in nuclear, but if they were developing 
chemical and biological, we had to, too. We understood our 
position, and the crews understood it, and they're very 
patriotic, and that's why they have not complained, to this 
day.
    Senator Bill Nelson. Including your crewman from Merritt 
Island, Florida.
    Commander Alderson. Yes, sir.
    Senator Bill Nelson. That's my home area.
    Commander Alderson. He was also in Fearless Johnny, and he 
remembers walking around with his atropine solution in a 
syrette, in his uniform.
    Senator Bill Nelson. I see. Tell me, in your testimony you 
said that you were concerned about the decontaminants that were 
used to clean up after the test. Tell us about that.
    Commander Alderson. Yes, sir. In the morning after the 
cloud had passed by, three members of the crew went topside. 
There was a supervisor, and then there was one with a soap-HTH 
solution. HTH is a household chlorine, extremely concentrated, 
calcium hypochlorite. Then there was a third guy with a fire 
hose. The soap solution was added to the HTH to have it cling 
to the vessel and then was washed off.
    One of the guys that was in the decon crew reminded me just 
a week ago, ``You remember, boss,'' he says, ``we were creating 
chlorine gas.'' When you put the chlorine, the HTH, against the 
engine room's stack and the generator stacks, we were creating 
chlorine gas.
    I have often wondered why the skippers of the LTs, all of 
them, have respiratory problems. Well, in the intakes for the 
interior of the vessel, we had filters, but they were micron 
filters for the pathogens that we were testing. They weren't 
any good against the gas.
    When they finished their decon exterior, they went down to 
the port side. On the port side amidships, you'll see a hatch. 
Outside of that hatch was a metal GI can. The sailors took off 
their protective clothing--cotton coveralls, gloves, boots, and 
a gas mask--no hat. They placed all of that in the container. 
They sealed the container and had a canister of ethylene oxide, 
which they fired off for contact time on the interior of that 
canister. Then they went inside, took showers, went to the 
interior of the vessel. Once they were on the interior, the 
ship got underway and went and exchanged monkeys.
    Ethylene oxide, I noticed--caught my attention in May 29, 
2000, Time Magazine. It was listed as a new carcinogen, one 
which can cause non-Hodgkin's lymphoma and leukemia. That's why 
I'm worried.
    After we had had a series of tests, we would go to the 
south end of Johnston Island, where we would decon the interior 
of the ships. What we would do was, we had what we called 
``challengers,'' which were glass containers with aerosol 
makers on top. We would place these throughout the tugs, get 
the aerosols being generated, and we had a series of electric 
fans throughout the ship that would circulate this stuff. We'd 
seal up the vessel, go away, give it about a 4- or 5-hour 
contact time. Then we would come back, open up, air out the 
ship, go back inside. This stuff would still be coming off the 
bulkheads and running and so forth, but the sailors were going 
back inside. You open up the galley, start feeding. The guys 
start repairing, go back, sleep, put on their clothes, whatever 
that was on the interior.
    What we used on the interior of the vessel to decon at that 
time was betapropiolactone and formalin, both of which are 
known to be highly carcinogenic.
    Senator Cleland. Just a couple more minutes.
    Senator Bill Nelson. Yes, if you don't mind.
    Mr. Brocklebank, why don't you describe how the airplanes 
would come and lay down this blanket of spray and then your 
ship would head through it. Tell us where you were at the time.
    Mr. Brocklebank. My position on the ship was up in the main 
radio room. I could not see outside, so I really couldn't see 
these airplanes coming through, but I heard from the signalmen 
who were up on the signal deck, sometimes they could hear the 
planes. Usually they would fly in a straight line and spray out 
a long cloud, usually miles ahead of the ship. Then we would 
continue on a certain course and go through this cloud. 
Sometimes we'd go through more than once. A lot of times, the 
weather conditions weren't right, so we'd return to port 
without anything happening.
    Myself, I never saw one of the planes, because I was in an 
enclosed room, but I heard from some of the signalmen that they 
could hear them in the distance. But you couldn't actually 
really see the cloud, like fog or something, but they say it 
was there.
    Senator Bill Nelson. Because you were in very cold weather, 
did you observe that some of this mist crystallized, that it 
froze and was on the ship?
    Mr. Brocklebank. Well, anytime we used to go out, when we'd 
get back in, they had to clear the ship of ice. So if it was on 
there, I don't know.
    Senator Bill Nelson. You mentioned in your testimony that 
certain civilians wore special suits. Tell us about that.
    Mr. Brocklebank. They used to take care of the monitoring 
stations that they'd put on the ship. There were around 9 or 11 
of these little test stations that were supposedly to absorb 
some of these things they were spraying on us. The civilians 
used to wear overalls and masks and so forth, and they would 
come in and do a decontamination on the rooms in the ship. 
They'd come, go, and we wouldn't see them again until we'd go 
out for more tests. They're the only ones that had the suits.
    Senator Bill Nelson. At the time, you were told nothing 
about this test?
    Mr. Brocklebank. That's correct. We were completely in the 
dark.
    Senator Bill Nelson. Either before, during, or after.
    Mr. Brocklebank. Definitely, and never heard anything after 
it happened, for 30-some years.
    Senator Bill Nelson. Were you ever given any protective 
gear to wear yourself?
    Mr. Brocklebank. No, sir.
    Senator Bill Nelson. None of the crew, that you observed.
    Mr. Brocklebank. Well, at our last reunion, one of our 
shipmates, whose general quarters station was on the main deck 
behind the forward gun mount, brought a jacket that he said was 
issued to him, and all it was was a foul weather jacket.
    Senator Bill Nelson. No further questions, Mr. Chairman.
    Senator Cleland. Thank you all. Thank you, Senator Nelson, 
for bringing this to my attention.
    To Eric Longabardi, thank you for bringing it to the 
Nation's attention. I understand you have received some 
recognition in your journalistic profession, but you certainly 
deserve more recognition.
    Hopefully we can get to the bottom of this sad chapter in 
American history, in hopes that we can make sure that this 
never happens again to our service men and women.
    I will say that my father was stationed at Pearl Harbor 
after the attack in World War II and was stationed there in 
1944/1945, and so I have a certain connection to Pearl Harbor 
in a special way, and to the Navy.
    I was in the Army, served in the military in Vietnam and 
was wounded and came back and had a real disaffection with my 
Government and a sense of let-down by the VA and my own 
Government, and I feel the sense of distress in your voices 
about your Government letting you down.
    We hope that we can pick the ball up here and through 
better follow-up from the Veterans Administration and the 
military with you all and the people who were involved in the 
SHAD experiments, that we can do justice by you from now on. We 
hope that this chapter in our history never happens again, and 
that's one of the reasons we're meeting.
    Senator Bill Nelson. Mr. Chairman?
    Senator Cleland. Senator Nelson?
    Senator Bill Nelson. As we continue to dig in this, I 
appreciate your tenacity. Because of who you are, your tenacity 
will make sure that this thing continues. But we have policy 
questions here, that we've heard from the testimony, of 
concealment, policy questions on deception, and the policy 
question of human guinea pigs without proper protection or 
information, and all of those policy questions beg answers.
    Senator Cleland. This subcommittee is determined to find 
them.
    Thank you very much. Our subcommittee hearing is adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Max Cleland
                         other testing regimes
    1. Senator Cleland. Dr. Winkenwerder, what assurance can you give 
us that there aren't more SHAD or Project 112 testing regimes just 
waiting to be uncovered?
    Dr. Winkenwerder. At this time it is premature to give such 
assurances. Although evidence we have found so far indicates that a 
total of 134 tests were planned by the Deseret Test Center, the 
possibility remains that there could have been more. Our investigators 
continue to search Deseret Test Center data sources, and will not 
consider their job done until they can definitively state that they 
have information on all Deseret Test Center tests planned. DOD is 
committed to completing this investigation and releasing all medically 
relevant information by June 2003.

                          acknowledging tests
    2. Senator Cleland. Dr. Winkenwerder, though you were not at DOD at 
the time of these tests, why do you think it has taken DOD almost 30 
years to acknowledge these tests?
    Dr. Winkenwerder. DOD acknowledged most of these tests in 1977 when 
the Army released its report titled ``U.S. Army Activity in the U.S. 
Biological Warfare Programs.'' In the same timeframe, DOD presented 
congressional testimony about these tests, as well as classified 
briefings to some congressional personnel.
    There were sound operational security reasons for not making 
details of these tests public. Also, there was little reason to release 
those details, because the scientific community believed that there was 
very little chance of heath effects resulting from involvement in these 
tests.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                   community requests for information
    3. Senator Bill Nelson. Dr. Winkenwerder, my office has received 
several calls since the Department of Defense's announcement about 
wheat stem rust biological tests conducted in the public domain in the 
vicinity of Yeehaw Junction, Florida, in 1968. The fact sheet provided 
by DOD identifies summary technical data relative to the test--agents, 
dates, methods of delivery, etc.--but does not provide the kind of 
detail that any community used as a laboratory would expect to have 
available to do its own risk or consequence assessment. Will you 
rapidly respond to communities' requests for amount of agents used, or 
other information useful to an independent analysis or survey? If not, 
how do you intend to answer these communities' legitimate questions 
about the levels of risk to which they may have been exposed or levels 
of risk that may still exist in the public domain?
    Dr. Winkenwerder. We will respond to such requests on a case-by-
case basis. We will respond to community requests if we are able to 
locate the information requested, and if the information can be 
declassified without risk to national security. Because most tests used 
simulated agents, the health risks to communities were minimal. Tests 
using real chemical or biological agents were conducted under tightly 
controlled conditions in restricted areas in order to pose no hazard to 
civilians. 

                           dod/va cooperation
    4. Senator Bill Nelson. Dr. Winkenwerder, at the request of 
Congress in 1991, the GAO was to gather information on all DOD 
chemical/biological (chem/bio) experiments during the last 50 years and 
review VA handling of claims from veterans who believe they may have 
been exposed to agents during military testing. In its 1993 report, the 
GAO noted that, ``There were at least three secret chemical experiments 
conducted between 1942 and 1975 . . . [and that] all of these tests 
have been declassified by the services since at least 1975.''
    We know now that this was not the case. All the chem/bio 
experiments planned or conducted since WWII were not revealed to the 
GAO, certainly those associated with Project 112 seem to have been 
overlooked or not disclosed. For example, a Department of the Army 
report dated 24 February 1977 titled ``U.S. Army Activity in the U.S. 
Biological Warfare Programs'' list several tests that pre-date or are 
contemporaneous with Project 112. This report identifies several tests 
in and out of the public domain that used biological agents, pathogens, 
and simulants across the country.
    I am particularly concerned about the tests done in Florida, 
according to this report, at or near Panama City, Eglin AFB, Avon Park 
AFB, Cape Kennedy, Belleglade, and Fort Pierce. Please explain why the 
GAO apparently did not get the full cooperation of DOD in 1993 such 
that we have lost nearly 10 years of time for research, 
declassification, and notification of veterans?
    Dr. Winkenwerder. Because none of the current Defense officials 
were involved with the GAO's 1993 investigation, we cannot comment on 
the degree of cooperation the Department may have provided. Our 
investigation has yielded a great deal of information in the last 2 
years to enable the Department of Veterans Affairs to adjudicate 
benefit claims for our veterans.

                      inconsistency between lists
    5. Senator Bill Nelson. Dr. Winkenwerder, how do you explain the 
inconsistency between the list provided in the 1977 Army report and the 
list provided by Project 112?
    Dr. Winkenwerder. The list established by Project 112 is different 
from the list provided by the 1977 report for several reasons. First, 
Project 112 began in 1962, after some of the tests reported in the 1977 
report took place. Also, the 1977 report focused on biological testing, 
while Project 112 encompassed both chemical and biological testing.

    6. Senator Bill Nelson. Dr. Winkenwerder, how do you plan to 
resolve these inconsistencies?
    Dr. Winkenwerder. In our effort to find the information the VA 
needs to help veterans, we started with a blank slate. Our objective is 
not to verify or deny previous reports, but to accurately present the 
information we find.

    7. Senator Bill Nelson. Dr. Winkenwerder, will you prepare and 
release fact sheets on these tests as well?
    Dr. Winkenwerder. Our investigation will end when we have released 
fact sheets on all the tests conducted by the Deseret Test Center. To 
date, we have received no request from the VA for help with information 
on tests conducted before or after those tests performed by the Deseret 
Test Center.

                   disclosure of testing information
    8. Senator Bill Nelson. Dr. Winkenwerder, the apparent problem we 
have faced over time appears to be DOD's unwillingness to disclose 
information relating to the scope of our own chemical and biological 
warfare past. The issue for this hearing is DOD's responsibility and 
the actions necessary to ``come clean,'' if you will, with our past and 
provide the information necessary to assess and deal with the risks to 
public safety and our service members' health that this testing may 
have or continue to pose. What systems are in place now to expand the 
investigation beyond Project 112 to find and disclose other chem/bio 
research and development, either before or after Project 112 and the 
close of the Deseret Test Center, that may have exposed service members 
or the public to potential danger?
    Dr. Winkenwerder. Since beginning our investigation of Deseret Test 
Center testing, we have focused on gathering, declassifying, and 
releasing the information the Department of Veterans Affairs needs in 
order to process veterans' claims. To date, we have received no request 
from the VA for help with information on tests prior to or after those 
tests conducted by the Deseret Test Center. However, Dr. David Chu, 
Under Secretary of Defense (Personnel and Readiness) has asked for 
additional information on chemical and biological warfare agent 
research and testing. In a letter to the Under Secretary of Defense 
(Acquisition, Technology, and Logistics), Dr. Chu requested more data 
about the use of chemical and biological warfare agents and their 
simulants throughout DOD, stating that the data was necessary to meet 
our obligations in the area of force health protection and occupational 
health.

    9. Senator Bill Nelson. Dr. Winkenwerder, we appreciate that the 
greatest challenge to the fastest possible discovery and release of 
information relating to these tests and experiments is the labor-
intensive effort that is required.
    What are your estimates for how long it will take to complete the 
release of names to the VA relative to SHAD and Project 112?
    Dr. Winkenwerder. Our investigation into all SHAD, Project 112, and 
Deseret Test Center tests will be completed by June 2003. All crew 
lists will be sent to the VA before then.

    10. Senator Bill Nelson. Dr. Winkenwerder, what additional 
resources do you need to go faster?
    Dr. Winkenwerder. This investigation requires specialized knowledge 
and skills. No further resources are required, nor would additional 
resources accelerate the investigation.

    11. Senator Bill Nelson. Dr. Winkenwerder, what additional 
resources do you need to expand the effort and work those programs that 
predate or followed Project 112?
    Dr. Winkenwerder. To date, the scope of an expanded effort has not 
been determined. It is premature to establish what additional resources 
would be necessary.

                           notifying veterans
    12. Senator Bill Nelson. Mr. Epley, please describe the technical 
challenges associated with translating the information that DOD has 
been providing regarding the Project 112 tests and your efforts to 
notify veterans who may have been exposed to toxic or simulated chem/
bio agents.
    Mr. Epley. The Department of Defense provides the Department of 
Veterans Affairs with the names and service numbers of Project 112 
veteran participants. Using that information, VA attempts to obtain 
each veteran's social security number. That information is then used in 
an attempt to acquire the veteran's current address.
    VA initially matches name and service number data against its 
Beneficiary Identification and Records Locator Subsystem (BIRLS) and 
the Compensation & Pension Master Record (CPMR) file. If social 
security number information is found in either system, it is extracted 
along with numerous other data elements for each veteran. The names and 
service numbers of veterans not identified with a social security 
number are then run against the National Cemetery Administration 
database for matches.
    Those records, for which VA is unable to obtain social security 
numbers using VA systems/databases, are referred to the National 
Archives and Records Administration (NARA), National Personnel Records 
Center (NPRC), in St. Louis, Missouri. NPRC personnel review military 
personnel records, extract social security numbers and, if available, 
return that information to VA.
    The veterans' names and social security numbers are then referred 
to either the Internal Revenue Service (through an existing interagency 
agreement with the National Institute for Occupational Safety and 
Health) or ChoicePoint (a private provider of information) to obtain 
current addresses. Once the addresses are received, VA prepares and 
mails outreach letters to Project 112 participant veterans.

    13. Senator Bill Nelson. Mr. Epley, how would you characterize 
DOD's cooperation in this effort over the years?
    Mr. Epley. Our history on this project shows that cooperation was 
slow in developing, but the pace of positive interactions has been 
accelerating significantly in recent months. In two meetings held with 
DOD in late 1997, VA was advised that all relevant records about these 
tests were classified and general access to that material was not 
possible, but that it could be provided on a case-by-case basis. In 
August 2000, DOD asked that SHAD inquiries be narrowed to specific 
veteran claims.
    A VA/DOD workgroup was subsequently established and met for the 
first time in October 2000. VA and DOD continue to meet regularly to 
discuss the status of the investigation and other ancillary Project 
112/SHAD issues. In July 2002, DOD committed to provide VA with all 
medically relevant data and a complete roster of participants involved 
in tests conducted by the Deseret Test Center in the 1960s and 1970s. 
They have stepped up efforts to complete the declassification process 
as quickly as possible and have committed to sharing all information 
with VA by June 2003.
    The working relationship between the two Departments continues to 
improve. In addition to stepping up the declassification process, DOD 
has helped VA by designing, building, and updating a computerized 
roster of Project 112 veterans for VA's use. DOD has also agreed to 
allow VA to include its toll-free telephone number in future outreach 
letters so that veterans who have questions about the tests themselves, 
can communicate directly with DOD representatives.

    14. Senator Bill Nelson. Mr. Epley, there is tremendous pressure to 
rapidly conclude our research and declassification efforts relative to 
Project 112. Veterans want to know now what their risks may have been. 
We owe them the fastest possible resolution of their potential exposure 
and consideration of any claims they may make. What improvements have 
you requested to the current process of information transfer from DOD 
to the VA?
    Mr. Epley. Following VA's request in June, DOD is providing to VA 
the names and service numbers of veterans who participated in each test 
(which is not classified information) as soon as DOD identifies the 
ship or unit involved, without waiting for the declassification process 
to be completed on other relevant information. This enables VA to begin 
locating the veterans sooner and expedites our outreach efforts.

    15. Senator Bill Nelson. Mr. Epley, in your view, what is the 
potential impact of expanding the discovery and declassification effort 
beyond the Project 112 tests that have been disclosed so far?
    Mr. Epley. We understand that DOD is reviewing its records 
regarding chemical and biological tests that may have been conducted 
either before or after Project 112. When DOD provides information about 
any additional tests to VA, we will initiate identification and 
notification of veterans who participated in these tests, as 
appropriate. Without knowing the number of veterans involved in such 
tests, it is not possible to estimate the impact of expanding the 
discovery and declassification efforts.

    [Whereupon, at 12:48 p.m., the subcommittee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
